Report No. D-2009-005             October 10, 2008




          Controls Over the Contractor
             Common Access Card
                   Life Cycle
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector General
for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and requests can
also be mailed to:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AMC                           Army Materiel Command
CAC                           Common Access Card
CVS                           Contractor Verification System
DEERS                         Defense Enrollment Eligibility and Reporting System
DMDC                          Defense Manpower Data Center
DUSA-BT                       Deputy Under Secretary of the Army for Business Transformation
GS                            General Schedule
ILP                           Inventory Logistics Portal
JPAS                          Joint Personnel Adjudication System
KBR                           Kellogg, Brown, and Root, Inc.
NACI                          National Agency Check with Inquiries
RAPIDS                        Real-Time Automated Personnel Identification System
SES                           Senior Executive Service
SPOC                          Service Point of Contact
TASM                          Trusted Agent Security Manager
USD (AT&L)                    Under Secretary of Defense for Acquisition, Technology, and
                                Logistics
USD (P&R)                     Under Secretary of Defense for Personnel and Readiness
 -.                                 INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704



                                                                                    October 10, 2008

MEMORANDUM FOR DISTRIBUTION

SUBJECT: Controls Over the Contractor Common Access Card Life Cycle
         (Report No. D-2009-005)


We are providing this report for review and comment. We considered comments from clients on a
draft ofthis report when we prepared the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. We reviewed
comments from the Under Secretary of Defense for Acquisition, Teclmology, and Logistics; the
Under Secretary of Defense for Personnel and Readiness; the Under Secretary of Defense for
Intelligence; the Assistant Secretary of Defense (Networks and Information Integration)/DoD
Chief Information Officer; the Commander, U.S. Army Materiel Command; the Deputy Under
Secretary of the Army for Business Transformation; the Director, Defense Manpower Data
Center; and the Adjutant General, U.S. Army Human Resources Command.

After receiving client comments, we met with representatives from the Offices of the Secretary of
Defense, the Under Secretary of Defense for Personnel and Readiness, and the Deputy Under
Secretary of the Army for Business TransfOlmation. As a result of these meetings, we added two
recommendations and revised four recommendations. Our clients agreed to take additional actions
not addressed in their responses to the draft report. On the basis of these agreements, we consider
the recommendations generally resolved; however, they remain open for reporting purposes
pending receipt and review of comments on the final report. We added Recommendation A.I. and
renumbered draft Recommendations A.I. through A.5. as A.2. tlu'ough A.6. We renumbered draft
Recommendation B.3. as BA. after adding a new B.3. We revised Recommendations A.3.a.(2),
A.3.b.(2), B.2., and C.I.c. We request additional comments on the added and revised
recommendations, as well as on Recommendations A.3.a.(l)(b), A.3.b.(I), A.3.c., B.l.a., B.l.b.,
C.I.a., C.I.b., C.2.a., and C.2.b., by October 31,2008. Please see the recommendations table on
page ii for responsible organizations.

Please provide comments that confOlm to the requirements of DoD Directive 7650.3. Ifpossible,
send your comments in electronic format (Adobe Acrobat file only) to AudJ&OO dodi .mil.
Copies of your conmlents must have the actual signature of the authorizing official for your
organization. We are unable to accept the / Signed / symbol in place of the actual signature. If
you arrange to send classified comments electronically, you must send them over the SECRET
Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to Ms. Melinda M.
Oleksa at (703) 604-9174 (DSN 664-9174) or Ms. Hanll T. Nguyen at (303) 676-7397
(DSN 926-7397). Team members are listed inside the back cover.



                                           ~~tto
                                            Principal Assistant Inspector General
                                              for Auditing
DISTRIBUTION:

DEPUTY SECRETARY OF DEFENSE
UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND
   LOGISTICS
UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE
ASSISTANT SECRETARY OF DEFENSE (NETWORKS AND INFORMATION
   INTEGRATION)/DOD CHIEF INFORMATION OFFICER
COMMANDER, U.S. ARMY MATERIEL COMMAND
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
   AND COMPTROLLER)
NAVAL INSPECTOR GENERAL
DEPUTY UNDER SECRETARY OF THE ARMY FOR BUSINESS
   TRANSFORMATION
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
DIRECTOR, DEFENSE MANPOWER DATA CENTER
ADJUTANT GENERAL, U.S. ARMY HUMAN RESOURCES COMMAND
Report No. D-2009-005 (Project No. D2007-D000LA-0199.001)                                October 10, 2008


               Results in Brief: Controls Over the
               Contractor Common Access Card Life Cycle
The life cycle of the contractor Common Access           Contractors were misclassified as Government
Card (CAC) consists of approval, issuance,               employees on their CACs. Specifically, 40,055
reverification, revocation, and recovery. DoD            contractor CACs indicated the holders had
officials use the Contractor Verification System         General Schedule pay grades, and 211,851 had
(CVS) to approve contractor CACs, and the                e-mail addresses that improperly identified the
Real-time Automated Personnel Identification             holders as U.S. Government employees.
System (RAPIDS) to issue CACs.
                                                         Also, contractors could become CVS sponsors,
What We Did                                              and sponsors who left Government service may
The objective of this audit was to determine             have been approving CACs.
whether controls over contractor CACs were in
place and worked as intended. This audit is the          Overall, CAC life-cycle weaknesses pose a
first in a series on contractor CACs.                    potential national security risk that may result in
                                                         unauthorized access to DoD resources,
                                                         installations, and sensitive information
What We Found                                            worldwide.
Additional controls over contractor CACs are
needed, and existing controls need                       What We Recommend
improvement. Specifically, contractor CACs
were not consistently approved, issued,                  To tighten controls over contractor CACs, we
reverified, revoked, or recovered across DoD.            recommend implementing:
    • Government sponsors had inadequate                     • joint, DoD-wide, contractor CAC
        evidence to link contractors to a contract              life-cycle policy;
        or justify a CAC expiration date.                    • improved Army oversight at the KBR
    • Some contractors received CACs                            CAC issuance site;
        without undergoing background checks                 • additional system controls for CVS and
        or receiving appropriate Government                     RAPIDS; and
        approval.                                            • procedures to ensure CAC sponsors are
    • CAC issuers changed information                           current Government employees.
        approved by Government sponsors.
    • DoD did not always recover revoked                 Client Comments and Our
        contractor CACs.                                 Response
                                                         Clients generally concurred with the
Also, better Army oversight is required for a            recommendations. One outstanding item
Kellogg, Brown, and Root, Inc. (KBR) RAPIDS              remained, which related to implementing
site that issued 25,428 CACs to contractors              systems controls to reject improper e-mail
deploying to Southwest Asia.                             addresses for contractors applying for a CAC.
    • A KBR subcontractor did background                 As a result of management and client comments,
         checks with no Army oversight.                  we added, revised, and renumbered
    • A contractor facilitated a CAC approval            recommendations. For the recommendations
         process that bypassed CVS.                      requiring additional comments, please see the
    • Nearly half of revoked CACs were not               table on the back of this page.
         recovered.

                                                     i
Report No. D-2009-005 (Project No. D2007-D000LA-0199.001)                      October 10, 2008

Recommendations Table
Client                            Recommendations                   No Additional Comments
                                  Requiring Comment                 Required
Deputy Secretary of Defense       A.1.
Under Secretary of Defense for                                      A.2., A.5., and D.2.
Acquisition, Technology, and
Logistics

Under Secretary of Defense for    A.3.a.(1)(b), A.3.a.(2),          A.3.a.(1)(a), A.3.d., A.3.e.,
Personnel and Readiness           A.3.b.(1), A.3.b.(2), A.3.c.,     A.5., and D.2.
                                  C.1.a., C.1.b., C.1.c., C.2.a.,
                                  and C.2.b.
Under Secretary of Defense for    C.2.a. and C.2.b.                 A.4., A.5., D.2.
Intelligence

Assistant Secretary of Defense    C.2.a. and C.2.b.
(Networks and Information
Integration)/DoD Chief
Information Officer
Commander, U.S. Army Materiel     B.1.a., B.1.b., and B.2.          B.1.c. and B.1.d.
Command

Deputy Under Secretary of the     B.3.
Army for Business
Transformation

Director, Defense Manpower Data                                     A.6. and D.1.
Center

Adjutant General, U.S. Army                                         B.4.
Human Resources Command

Please provide comments by October 31, 2008.




                                              ii
Table of Contents

Results in Brief                                                            i

Introduction                                                                1

       Objectives                                                          1
       Background                                                          1
       Reliance on Computer-Processed Data                                 3
       Subsequent Common Access Card Audits                                3

Finding A. Policy Governing the Contractor Common Access Card Life Cycle   5

       Actions Taken by the Defense Manpower Data Center                   16
       Recommendations, Client Comments, and Our Response                  16

Finding B. Oversight of Common Access Cards for Contractors Deploying to
Southwest Asia                                                             29

       Clients Comments on the Finding and Our Response                    34
       Recommendations, Client Comments, and Our Response                  35

Finding C. Identification of U.S. and Foreign National Contractors         43

       Actions Taken by the Defense Manpower Data Center                   47
       Recommendations, Client Comments, and Our Response                  48

Finding D. Oversight of Common Access Card Sponsors                        53

       Actions Taken by the Defense Manpower Data Center                   55
       Recommendations, Client Comments, and Our Response                  56

Appendices

       A. Scope and Methodology                                            59
              Review of Internal Controls                                  60
              Prior and Related Coverage                                   63
       B. Estimates Based on Statistical Sampling                          65
       C. Multiple Active CACs                                             67
       D. Contract Clauses Governing CAC Recovery                          69
Table of Contents (cont’d)

Client Comments

      Under Secretary of Defense
        for Acquisition, Technology, and Logistics   71

      Under Secretary of Defense
        for Personnel and Readiness                  73

      Under Secretary of Defense
        for Intelligence                             84

      Assistant Secretary of Defense
        (Networks and Information Integration)/
         DoD Chief Information Officer               88

      U.S. Army Materiel Command                     90

      Deputy Under Secretary of the Army
        for Business Transformation                  91

      U.S. Army Human Resources Command              93
Introduction
Objectives
The overall objective of this audit was to determine whether controls over Common
Access Cards (CACs) provided to contractors were in place and worked as intended.
Specifically, we determined whether DoD officials issued CACs to contractors, verified
the continued need for contractors to possess CACs, and revoked and recovered CACs
from contractors in accordance with DoD policies and procedures.

Background
In October 2000, DoD began issuing CACs to active-duty military personnel, reserve
personnel, civilian employees, and eligible contractors. DoD personnel and eligible
contractors use CACs as a general identification card and to gain access to DoD
resources, installations, and sensitive information. In addition, CACs allow DoD
personnel and eligible contractors to electronically sign and send encrypted e-mails to
facilitate daily business activity. Under the Geneva Conventions, the CAC also serves as
an identification card for civilians and contractors who accompany the Armed Forces
during a conflict, combat, or contingency operation. Figure 1 summarizes CAC
responsibilities of DoD agencies according to DoD Directive 1000.25, “DoD Personnel
Identity Protection (PIP) Program,” July 19, 2004, and the Web site of the Office of the
Under Secretary of Defense for Acquisition, Technology, and Logistics (USD [AT&L]).




                  Figure 1. CAC Responsibilities of DoD Agencies




                                           1
As shown in Figure 1, the responsibilities for implementing and overseeing the CAC
program are spread among many DoD agencies, requiring extensive coordination. DoD
has not established a lead agency to control overall CAC implementation.

Contractor CACs
A contractor CAC looks different from military and DoD civilian CACs. It displays a
green vertical1 stripe and contractor affiliation, allowing Government officials to
differentiate a contractor’s access privileges to DoD resources, installations, and
information from civilian or military access privileges. See Figure 2 for CAC samples.




                   Figure 2. Samples of Civilian and Contractor CACs

An Office of the Secretary of Defense Memorandum signed by the Under Secretary of
Defense for Personnel and Readiness (USD [P&R]) and the DoD Chief Information
Officer, “Common Access Card (CAC),” January 16, 2001, implemented CAC policy for
a common identification card intended to grant access to DoD facilities and networks.
This policy was updated in an Office of the Secretary of Defense Memorandum signed by
USD (P&R) and the DoD Chief Information Officer, “Common Access Card—Changes,”
April 18, 2002.




1
 DMDC stated that the new Homeland Security Presidential Directive-12 CAC has a green horizontal stripe
to indicate a contractor.


                                                  2
Systems Used To Process Contractor CACs
A memorandum from USD (P&R), “DEERS/RAPIDS Lock Down for Contractors,”
November 10, 2005, mandates the use of the Contractor Verification System (CVS) to
approve contractors’ applications for CACs. CVS is a Web-based system that feeds
information on approved contractors into the Defense Enrollment Eligibility and
Reporting System (DEERS), the central repository for information collected about DoD
personnel and their authorized beneficiaries.

A second system, the Real-time Automated Personnel Identification System (RAPIDS),
retrieves contractor records from DEERS and prints the information on CACs for
issuance.

Reliance on Computer-Processed Data
We relied on computer-processed data for the numbers and percentages in the findings.
In finding A, we used statistical sampling estimates, which we identified by using the
word “estimate” before stating the percentage. Some numbers and percentages in
finding A were not based on statistical estimates, and therefore we did not use the word
“estimate” to describe these. Findings B, C, and D did not use statistical estimates.
Appendix A explains how computer-processed data were used and our assessment of
their reliability.

Subsequent Common Access Card Audits
This audit is the first in a series on the contractor CAC. The second in the series focuses
on the contractor CAC in Southwest Asia. The third in the series focuses on the
contractor CAC in the Republic of Korea. Subsequent CAC audits may be planned for
other overseas locations.

The Federal Acquisition Regulation 2.101 states that an “Inherently Governmental
Function means, as a matter of policy, a function that is so intimately related to the public
interest as to mandate performance by Government employees.” Some of the identified
weaknesses in this report may be related to contractors performing inherently
governmental functions. This issue will be included in subsequent audits.




                                              3
4
Finding A. Policy Governing the Contractor
Common Access Card Life Cycle
Contractor CACs were not consistently approved, issued, reverified, revoked, or
recovered across DoD. These CAC life-cycle weaknesses pose a potential national
security risk that may result in unauthorized access to DoD resources, installations, and
sensitive information worldwide. To improve national security, DoD should implement
policy governing CACs from approval to recovery. The policy should require:
    • Government sponsors to coordinate with contracting and security personnel
        before approving contractor CACs,
    • system controls for CVS and RAPIDS to prevent improper changes to contractor
        CAC records, and
    • a clause in DoD contracts to encourage CAC recovery.

Phases of the CAC Life Cycle
The contractor CAC life cycle consists of four phases: application approval, issuance,
reverification, and revocation and recovery. The application approval phase begins when
a contractor requests a CAC through CVS. After the CVS application is approved, the
contractor reports to a RAPIDS site for CAC issuance. After issuance, CAC
reverification occurs in CVS every 180 days to ensure the contractor continues to need a
CAC. Finally, the CAC revocation and recovery phase begins when contractors no
longer need or are authorized CACs. Figure 3 displays the phases, and Figure 5 shows a
detailed chart of the contractor CAC life cycle.




                     Figure 3. Phases of the Contractor CAC Life Cycle



                                            5
 Management of CAC Life Cycle Phases
 As noted in the introduction, the responsibilities for implementing and overseeing the
 CAC program are spread among many DoD agencies. Those responsibilities also vary by
 phase in the contractor CAC life cycle. DoD has not established a single agency to
 control overall CAC implementation—including physical and logical access, background
 checks, and systems controls—to ensure that contractors seeking CACs to gain access to
 DoD resources and information are properly vetted, authorized, and monitored.

 Statistical Samples
 Each phase of the CAC life cycle has unique functions; therefore, we used statistical
 sampling to audit each phase. The Defense Manpower Data Center (DMDC) provided
 four contractor CAC data populations that corresponded to each phase of the contractor
 CAC life cycle. We grouped the data geographically to determine the locations with the
 most contractor CAC activity for each DoD Component.2 We used these locations as our
 subpopulations for statistical sampling. We relied on the Office of Inspector General
 Quantitative Methods Directorate to randomly select a sample for each subpopulation.
 See Appendix A for additional information about the statistical samples.

 For each statistical sample, we tested specific steps in the CAC life cycle. On the basis of
 the test results, the Office of Inspector General Quantitative Methods Directorate
 estimated the number of deficiencies in each subpopulation. These estimates include an
 interval with upper and lower bounds using a 90-percent confidence level. We are
 90-percent confident that the number of deficiencies in the CAC life cycle lies within an
 estimated range of the subpopulation; there is a 10-percent risk that the true value is
 outside the interval. Finding A reports the point estimate of each sample (middle of
 upper and lower bounds); see Appendix B for additional information on the estimates
 based on each statistical sample. Table 1 summarizes the details of each sample.

             Table 1. Statistical Sampling of Contractor CACs by Phase
 Data Populations       Total         Records in      Subpopulation as                        Sample
Provided by DMDC Records            Subpopulation     a Percent of Total                       Size

CVS applications               126,331            39,532                    31%                  235
CACs issued                    462,952            97,117                    21%                  145
CVS reverifications             61,492            32,098                    52%                  160
CACs revoked                   175,037            28,205                    16%                  250

 Approval of Contractors’ Applications for CACs
 According to the USD (P&R) Memorandum, “DEERS/RAPIDS Lock Down for
 Contractors,” November 10, 2005 (hereafter referred to as the P&R Memorandum), as of


 2
     DoD Components include the Army, the Navy, the Air Force, the Marine Corps, and DoD agencies.



                                                     6
July 2006 contractors who need CACs are required to apply for them electronically using
CVS. Each contractor should be sponsored by a Government official, also known as a
Trusted Agent,3 who is authorized to enter information into CVS.

Before approving contractors’ applications for CACs in CVS, Trusted Agents must do
the following.

       •    Establish the contractor’s affiliation with the Government through contract
            requirements in accordance with the Federal Information Processing Standards
            Publication 201-1, “Personal Identify Verification (PIV) of Federal Employees
            and Contractors,” March 2006, and DMDC CVS User Training Guide,
            Version 1.9, July 19, 2007.4

       •    Establish the contractor’s need for logical and physical access and the duration of
            access to DoD networks or facilities in accordance with the DMDC CVS User
            Training Guide, Version 1.9, July 19, 2007.

       •    Verify that the contract companies have vetted their contractors’ backgrounds5 in
            accordance with the DMDC CVS User Training Guide, Version 1.9, July 19,
            2007.

Contractor Affiliation With DoD
An estimated 82.93 percent of 39,532 CVS applications did not adequately document
contractors’ affiliations to the referenced DoD contracts (see Appendix B for the detailed
estimate). The P&R Memorandum did not indicate how Trusted Agents should validate a
contractor’s affiliation and did not require Trusted Agents to retain information
supporting CAC applications.

Based on interviews with Trusted Agents at 32 CVS sites, a contractor’s DoD affiliation
was established through several means, such as:

       •    visit authorization letters6 from contract companies that requested contractor
            CACs for access to DoD resources, installations, and information to perform
            contract services, and




3
 Trusted Agents were often Government contracting personnel or security managers. In many instances,
they held other Government positions, such as financial managers and administrative staff.
4
    Version 1.7, issued in September 2006, contained the same guidelines.
5
 Background checks are discussed under the issuance phase because the approval of an application does not
necessarily result in a CAC being issued.
6
 Visit authorization letters contained contractor information such as name, Social Security number, date of
birth, contract number, and security clearance level.


                                                       7
   •   requests by telephone or e-mail from contractor employees or Government
       contracting personnel for a CAC.

However, supporting documentation and explanations provided by Trusted Agents did
not confirm that contractors with CACs had legitimate DoD affiliations. Examples
follow.

   •   At one CVS site, a Trusted Agent stated that, under the Privacy Act, he was not
       permitted to maintain any personal information; therefore, he did not provide any
       supporting documentation related to the referenced contracts proving that
       contractors he sponsored had a valid DoD affiliation.

   •   At another CVS site, a Trusted Agent stated that she destroyed CAC application
       forms because there was no requirement to retain them.

   •   At other CVS sites, several Trusted Agents stated that they had personal
       knowledge of which contractors needed CACs, even though some of the Trusted
       Agents were responsible for hundreds of contractors.

Also, 2,560 of the 126,331 CVS applications provided by DMDC from January 1 through
June 30, 2007, did not reference a valid contract number. For example, “n/a” is not a
valid contract number.

CAC Expiration Dates
An estimated 89.50 percent of 39,532 CVS applications did not have sufficient evidence
to support that CAC expiration dates were within the scope of DoD contract periods of
performance (see Appendix B for the detailed estimate). The Office of the Secretary of
Defense Memorandum signed by USD (P&R) and the DoD Chief Information Officer,
“Common Access Card (CAC)—Changes,” April 18, 2002 (hereafter the CAC
Memorandum), allows CACs to be issued for a period of 3 years or the individual’s term
of service, employment, or association with DoD, whichever is shorter. However,
Trusted Agents could not provide supporting documentation that showed their contractors
were associated with DoD contracts for a specific period of performance. Instead,
Trusted Agents used various methods to establish the contractor CAC expiration date.
For example, a Trusted Agent stated that he used the end date of the last option year of a
contract as the CAC expiration date. Another Trusted Agent stated that she approved
CACs for 2 years past the contract end date.

To reduce CAC issuance workload, the Army and Navy DEERS/RAPIDS program
offices instructed their RAPIDS personnel, by e-mail, to issue contractor CACs for a
period of 3 years regardless of the contractors’ terms of service. Until CVS reverification
and recovery are proven to function correctly across DoD, CAC expiration dates should
be established in accordance with DoD guidance.




                                            8
Issuance of CACs
According to RAPIDS Site Security Managers7 at 35 locations, contractors report to a
RAPIDS station, specifically to RAPIDS Verifying Officials8 at the same locations, to
obtain their CACs. After verifying the contractor’s identity, the Verifying Official uses
the contractor’s Social Security number to retrieve the contractor’s record from DEERS.
If the contractor’s DEERS record indicates that the contractor is sponsored through CVS,
the Verifying Official issues the CAC. If the contractor does not have a DEERS record
or the record does not indicate that the contractor is sponsored through CVS, the
Verifying Official directs the contractor to the CVS Trusted Agent to appropriately
resolve the matter.

Background Checks
According to data obtained from the Joint Personnel Adjudication System (JPAS),
Trusted Agents approved an estimated 40.49 percent of 97,117 contractor CACs without
verifying that background checks had been initiated or completed for the contractors (see
Appendix B for the detailed estimate). The P&R Memorandum does not require Trusted
Agents to confirm with a Government security office that contractor background checks
have been initiated or completed before approving their CVS applications. Trusted
Agents stated that they did not confirm that background checks for contractors had been
initiated or completed because:

    •   contract companies were responsible for obtaining proper background checks for
        their employees,

    •   contractors did not work on classified contracts, and

    •   Government security officers were responsible for background checks.

Although a security clearance is not required to obtain a CAC, Homeland Security
Presidential Directive-12, “Policy for a Common Identification Standard for Federal
Employees and Contractors,” August 27, 2004, and Federal Information Processing
Standard 201-1 require contractors seeking a CAC to have a National Agency Check with
Inquiries (NACI) or an equivalent background investigation. Officials from the Office of
the Under Secretary of Defense for Intelligence stated that a National Agency Check with
Local Records and Credit Check, or a NACLC, is an equivalent investigation. DoD
Regulation 5200.08-R, “Physical Security Program,” April 9, 2007, also requires a NACI
or an equivalent investigation for permanent issuance of the CAC. Accordingly, we
relied on the Office of Inspector General Personnel Security Office to check JPAS and


7
 A RAPIDS site cannot operate without a Site Security Manager, who is responsible for user and site
administration, management of CAC stock, policy and procedure compliance, documentation and training,
and future CAC issuance enhancements.
8
Verifying Officials operate RAPIDS stations and issue CACs to contractors. Verifying Officials can be
Government officials or contractors.



                                                   9
verify whether contractors who were issued a CAC had a NACI or an equivalent
background check.9 We did not search other systems because DoD Directive 1000.25,
“DoD Personal Identity Protection (PIP) Program,” July 19, 2004, designates JPAS as the
DoD personnel security clearance system. JPAS maintains all types of personnel
clearance actions, including initial requests for background checks.

Government Approval
RAPIDS personnel issued an estimated 16.19 percent of 97,117 contractor CACs without
the required Government approval (see Appendix B for the detailed estimate). RAPIDS
did not have the controls to prevent CAC issuance to contractors who were not sponsored
in CVS.

The P&R Memorandum states that, as of July 31, 2006, CAC issuance to contractors
should be accomplished using CVS. However, Verifying Officials issued numerous
CACs before this effective date using DD Form 1172-2, “Application for Department of
Defense Common Access Card DEERS Enrollment.” Specifically, contractors
requesting access to DoD facilities and networks completed a DD Form 1172-2 and
submitted it to a Government sponsor. When the Government sponsor approved and
returned the form to contractors, they then reported to a RAPIDS station. The RAPIDS
Verifying Official issued the contractors their CACs based on the DD Form 1172-2
information. If a contractor did not have a personnel record in DEERS, the Verifying
Official created a DEERS record for the contractor. If the contractor already had a
DEERS record, the Verifying Official ensured the information was up-to-date and issued
the CAC. If the DD Form 1172-2 was not complete or approved, the Verifying Official
required the contractor to obtain an appropriate form from the sponsor. Verifying
Officials later forwarded the DD Forms 1172-2 to the DMDC Support Office for storage.

As of October 2007, one of the Army RAPIDS sites was still accepting the
DD Form 1172-2 for CACs instead of applications submitted electronically through CVS.
See finding B for details of the continued use of DD Form 1172-2.

The DMDC Support Office could not provide a CAC application that showed evidence of
Government approval either through CVS or DD Form 1172-2 for 18 of 145 contractor
CACs. Of the 18 contractor CACs, 4 were issued in 2007, after the CVS mandate took
effect.

CAC Reissuance
According to the CAC Memorandum, CAC reissuance occurs when CACs are lost,
stolen, or damaged or when information printed on the CAC requires change. Several
RAPIDS Site Security Managers stated that they reissue CACs to contractors who report
the cards missing as long as contractors have a valid DEERS record.



9
 See Appendix A for additional information about our reliance on the Office of Inspector General
Personnel Security Office, and finding B for additional information on background investigation
requirements.


                                                   10
Based on the DMDC data spanning January 1 through June 30, 2007, 4,309 of the
151,984 revoked CACs were coded as “lost.”10 It was not clear whether these contractors
who lost CACs were eligible for reissuance. Therefore, when reissuing a CAC, the
Verifying Officials should confirm that Trusted Agents have reestablished a contractor’s
continued affiliation with DoD in CVS.

Issuance of Multiple Active Contractor CACs
As of July 19, 2007, DMDC data showed 772 U.S. and foreign national contractors with
multiple active CACs, totaling 1,545 CACs. Appendix C details the number of
contractors and CAC types. In the CAC Memorandum, DoD acknowledges that there are
individuals who have multiple affiliations with the Department, such as a reservist who is
also a DoD contractor. However, DoD has not developed a solution for issuing a single
CAC regardless of the number of affiliations.

Although a contractor may have both a contractor and a military reservist CAC, it does
not seem logical that a contractor should possess two contractor CACs. The DMDC data
showed a contractor who had two active contractor CACs—one Identification CAC and
one Identification and Privilege CAC.11 The complexity of CAC affiliations and the
number of contractors with multiple CACs may prevent DoD from accurately accounting
for its contractors overseas or in the United States.

Consistency of Contractor CAC Information
The RAPIDS Verifying Officials issued an estimated 29.45 percent of 97,117 contractor
CACs with information different from that approved by the Government sponsor through
CVS/DD Form 1172-2 (see Appendix B for the detailed estimate). Specifically,
contractor CAC information such as pay grades, e-mail addresses, and expiration dates12
differed between DEERS/RAPIDS and CVS/DD Form 1172-2 (see Table 2 for details).
Reasons for differences were that CVS did not include all fields from DD Form 1172-2,
such as pay grade and Geneva Conventions category, and that RAPIDS did not have
automated system controls to prevent Verifying Officials from changing contractor
information entered or approved by the Trusted Agent in CVS.




10
 We ascertained this by querying the DMDC database on the revoke code, a character in DEERS that
explains why a CAC was revoked. For example, revoke code “L” means the CAC was lost.
11
 A DoD Identification and Privilege CAC entitles the holder to exchange and commissary privileges,
access to recreation facilities, and military discounts.
12
     See finding A, page 8, for a discussion of expiration dates.



                                                         11
       Table 2. Inconsistencies in the Sample of 145 CACs Issued to Contractors
        Name       Pay          Geneva       E-mail     Duty         CAC
                  Grade      Conventions Address Country           Expiration
                               Category                               Date

           2         2              3            30           9              9


In one case, a Trusted Agent approved a contractor CAC for expiration on June 30, 2007;
however, a RAPIDS Verifying Official changed the expiration date to May 29, 2010.
Another CAC application had no expiration date, and the Verifying Official issued a
3-year CAC. In both cases, the Verifying Officials had no authority to set or extend the
contractor’s CAC expiration date. As previously discussed, contractors’ CAC
applications should be approved by Trusted Agents in CVS. When Verifying Officials
believe that there is an error in a contractor’s CAC application, they should direct the
contractor to see his or her Trusted Agent so that appropriate changes are made.

Reverification of CACs
CVS was implemented to facilitate better tracking of contractor CACs than was possible
with the manually processed DD Form 1172-2. One improvement to the process in CVS
was the programmed prompt to reverify contractor CACs. Specifically, the DMDC CVS
User Training Guide states that the Trusted Agent should reverify a contractor’s need for
a CAC every 180 days. When a contractor reaches the 150-day mark, the Trusted Agent
receives e-mail notification from CVS to reverify the contractor’s continued need for the
CAC. The Trusted Agent has 30 days after this notification to reverify, or the
contractor’s CAC will automatically be revoked.

An estimated 92.04 percent of 32,098 CVS reverifications did not have sufficient
evidence to support the contractors’ continued need for CACs (see Appendix B for the
detailed estimate). The P&R Memorandum did not require Trusted Agents to confirm
with contracting officials the contractors’ continued need for CACs or to maintain
evidence of such confirmation. Therefore, Trusted Agents performed reverification in
many different ways. For example, Trusted Agents stated that they:

   •    checked JPAS, Army Knowledge Online, the Microsoft global e-mail address list,
        and local installation or facility badging systems to determine whether contractors
        continued working with the Government, and

   •    recognized contractors’ faces and assumed that contractors still needed CACs.

Some Trusted Agents sponsored many contractors while carrying out other duties.
Trusted Agents’ workload may have contributed to the lack of strong reverification
procedures.

Approximately 91.2 percent of 6,282, or 5,727 Trusted Agents, sponsored 50 or fewer
contractors from January 1 through June 30, 2007. However, the remaining 8.8 percent,


                                            12
or 555 Trusted Agents, sponsored an average of 117 contractors during this period; Table
3 has details.

  Table 3. Sponsorship Load of Trusted Agents During the First 6 Months of 2007
               Number of Contractors      Number of Trusted Agents
            Sponsored per Trusted Agent        With This Load
                         1 – 10                     4,017
                        11 – 25                     1,117
                        26 – 50                       593
                       51 – 100                       364
                      101 – 250                       155
                      251 – 500                        27
                     501 – 1,000                        7
                   More than 1,200                      2

Because there are no standard procedures for reverification, it is difficult to estimate how
long a reverification would take. Therefore, a reasonable limit on the number of
contractors a Trusted Agent may sponsor could not be established. However, DoD
should strengthen the reverification control by examining additional ways to establish a
reasonable number of contractors a Trusted Agent may sponsor.

In addition, the CVS User Training Guide did not specify procedures for the Trusted
Agents to reverify their contractors’ CACs. Rather, the Guide states:

               To reverify a contractor’s authorization to hold a CAC, click on the
               “Reverify” button. When the “Reverify” button is clicked, a pop-up
               window will appear . . . which asks you to confirm that you would like
               to reverify the applicant’s privileges to continue to carry a CAC. Click
               “OK” to process the verification request.

Figure 4 illustrates the reverification pop-up window.




                        Figure 4. Reverification Pop-up Window

Because Trusted Agents may have had too many contractors and CVS reverification
required only clicking a button, sponsors may not have spent much time or effort on




                                                 13
reverification. Further, because documentation is lacking, DoD has no assurance that the
Trusted Agents performed the reverification thoroughly and consistently across DoD.

Revocation and Recovery of Contractor CACs
The CAC Memorandum states that invalid, inaccurate, inoperative, or expired CACs
shall be returned to a RAPIDS site for disposition. When they receive the CACs, the
RAPIDS Site Security Managers submit the CACs to DMDC. When DMDC receives
them, DMDC updates their status in the Inventory Logistics Portal (ILP), the system for
inventory and logistic management of CAC cardstock. This action indicates that the
CACs have been revoked, recovered, and prepared for destruction.

Recovery Procedures
DoD officials did not recover an estimated 37.85 percent of 28,205 revoked CACs. In
addition, we could not determine whether DoD recovered an estimated 19.91 percent of
the 28,205 revoked CACs (see Appendix B for the detailed estimate). The CAC and
P&R Memoranda do not outline specific procedures for collecting revoked CACs. In
addition, the CAC and P&R Memoranda do not specify procedures for following up with
companies whose contractors do not return their CACs. Many Trusted Agents expressed
concerns about their responsibilities for recovering CACs. Examples follow.

     •   Because contractors worked at different locations, Trusted Agents were unaware
         of contractors leaving until after the fact. Thus, recovering CACs was difficult.

     •   Trusted Agents revoked contractors’ records in CVS, but felt it was not their job
         to collect CACs.

Further, the CAC and P&R Memoranda do not assign responsibility for recovering
contractor CACs. Trusted Agents stated that:

     •   contractors were required to turn in their CACs to the companies, and

     •   Government contracting personnel were responsible for retrieving the CACs.

Contract Clause
DoD did not have a contract clause to make contractor companies aware that CACs need
to be returned upon employees’ termination, resignation, or completion of service. Of the
nine13 Federal and DoD acquisition regulations reviewed, two14 contained clauses that



13
  (1) Federal Acquisition Regulation, (2) Defense Federal Acquisition Regulation Supplement, (3) Army
Federal Acquisition Regulation Supplement, (4) Navy-Marine Corps Acquisition Regulation Supplement,
(5) Air Force Federal Acquisition Regulation Supplement, (6) Air Force Materiel Command Federal
Acquisition Regulation Supplement, (7) Air Force Space Command Federal Acquisition Regulation
Supplement, (8) Defense Logistics Acquisition Directive Federal Acquisition Regulation Supplement, and
(9) U.S. Special Operations Command Federal Acquisition Regulation Supplement.



                                                  14
could be inserted in DoD contracts for governing the CAC recovery process (see
Appendix D for details of the regulations). However, those regulations were vague,
leaving contracting officials to determine whether the clauses should be included in the
contracts.

U.S. Law Governing Identification Cards
Unauthorized possession of an official identification card, like a CAC, can be prosecuted
criminally under section 701, title 18, United States Code. It states:
                    Whoever manufactures, sells, or possesses any badge, identification
                    card, or other insignia, of the design prescribed by the head of any
                    department or agency of the United States for use by any officer or
                    employee thereof, or any colorable imitation thereof, or photographs,
                    prints, or in any other manner makes or executes any engraving,
                    photograph, print, or impression in the likeness of any such badge,
                    identification card, or other insignia, or any colorable imitation thereof,
                    except as authorized under regulations made pursuant to law, shall be
                    fined under this title or imprisoned not more than six months, or both.

CAC recovery may improve if, during the CVS application process, applicants were
informed of this law and told that once they no longer had a valid need for CACs or that
their CACs were revoked or expired, they must return CACs to responsible Government
officials.

Directive-Type Memoranda
DoD Instruction 5025.01, “DoD Directives Program,” October 28, 2007, states that
Directive-Type Memoranda shall be effective for no more than 180 days from the date
signed, during which time they shall be incorporated into an existing DoD issuance,
converted to a new DoD issuance, reissued, or canceled.15 Our research of DoD
issuances showed neither the P&R Memorandum nor the CAC Memorandum has been
incorporated in or converted to a DoD issuance, reissued, or canceled. Because both of
these memoranda were issued more than 180 days ago and have not been cancelled, they
should be incorporated in or converted to a DoD issuance.

Conclusion
DoD did not have policies and procedures that consistently governed the contractor CAC
life cycle. Specific weaknesses follow.

        •   Trusted Agents did not establish contractors’ DoD affiliations and CAC
            expiration dates before approving CVS applications.



14
 Federal Acquisition Regulation 52.204-9, “Personal Identity Verification of Contractor Personnel,”
November 2006, and Air Force Federal Acquisition Regulation Supplement, Clause 5352.242-9001,
“Common Access Cards (CACs) for Contractor Personnel,” August 2004.
15
     A DoD issuance is a DoD Directive, Instruction, or Regulation.


                                                       15
    •   Trusted Agents approved CVS applications without verifying a background
        check.

    •   Verifying Officials issued contractor CACs without Government approval and
        with information that differed from what the Trusted Agents had approved in
        CVS.

    •   Trusted Agents did not consistently reestablish contractors’ continued need for
        CACs before reverifying the CACs in CVS.

    •   DoD officials did not recover all contractor CACs that were revoked.

These CAC life-cycle weaknesses pose a potential national security risk that may result
in unauthorized access to DoD resources, installations, and sensitive information
worldwide. See Figure 5 at the end of this finding for a summary of the contractor CAC
life cycle.

Actions Taken by the Defense Manpower Data Center
DMDC officials stated that they started exploring solutions for CAC recovery in July
2008. Specifically, they are studying ways to make contractors aware of CAC recovery
requirements through both CVS and RAPIDS. Also, DMDC officials stated that they
would continue to look for ways to encourage contractors and contracting organizations
to return CACs when they are revoked.

Recommendations, Client Comments, and Our
Response
Added, Renumbered, and Revised Recommendations
As a result of management and client comments, we added Recommendation A.1. to
establish a lead office responsible for the CAC life cycle, and renumbered draft
Recommendations A.1. through A.5. as A.2. through A.6. In addition, we revised draft
Recommendations A.2.a.(2) and A.2.b.(2)—now A.3.a.(2) and A.3.b.(2)—to clarify the
intent of the recommendations. Specifically, Recommendation A.3.a.(2) was revised to
clarify the need to ensure that certain data fields from the DD Form 1172-2 are included
as data fields in CVS, and are subsequently completed and transferred to
DEERS/RAPIDS by the Trusted Agents. Also, Recommendation A.3.b.(2) was revised
to clarify the need for Verifying Officials to ensure that the contractor, when attempting
to replace a lost CAC, is still eligible and has a continued need for a CAC by
coordinating with the responsible Trusted Agent.

A.1. We recommend that the Deputy Secretary of Defense designate an office with
the authority and responsibility for overseeing the DoD contractor Common Access
Card life cycle, including implementation of policy for logical and physical access.




                                            16
A.2. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics direct the Defense Acquisition Regulations Council to
include a standard contract clause in the Defense Federal Acquisition Regulation
Supplement that, at a minimum, requires contractors to comply with the joint
Common Access Card policy in Recommendation A.5. This clause should be
applicable to all DoD contracts and subcontracts for which contractor or
subcontractor personnel receive Common Access Cards.

Client Comments
The Principal Deputy Director, Acquisition Resources and Analysis, responding for the
USD (AT&L), agreed. The Principal Deputy Director stated that USD (AT&L) plans to
open a Defense Federal Acquisition Regulation Supplement case to add appropriate
regulatory language making contractors accountable for any CACs issued to them,
including returning the CACs if the CAC holder no longer needs or is no longer
authorized to use the CAC.

Our Response
The Principal Deputy Director’s comments were responsive, and no additional comments
are required.

A.3. We recommend that the Under Secretary of Defense for Personnel and
Readiness:

   a. Implement system controls for the Contractor Verification System and the
      Real-time Automated Personnel Identification System to prevent improper
      changes to contractor Common Access Card records. System controls
      should, at a minimum:

       (1) Prevent the Real-time Automated Personnel Identification System from:

              (a) Issuing Common Access Cards to contractors without the
              approval of a Trusted Agent in the Contractor Verification System.

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
USD (P&R), agreed. The Deputy Under Secretary stated that, in October 2008, DMDC
will enforce the lock down of DEERS/RAPIDS data entry so that data on contractors
applying for CACs are entered through CVS.

Our Response
The Deputy Under Secretary’s comments were responsive, and no additional comments
are required.




                                          17
               (b) Modifying contractor Common Access Card information
               approved by the Trusted Agent. When Verifying Officials believe
               there is an error in a contractor’s record, they should direct the
               contractor to see his or her Trusted Agent so changes may be made.

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
USD (P&R), partially agreed. The Deputy Under Secretary stated that, as indicated in
the response to Recommendation A.3.a.(1)(a), DMDC will lock DEERS/RAPIDS data
entry and see that, as of October 2008, contractor data are entered only through CVS.
The Deputy Under Secretary stated that the lock down would prevent DEERS/RAPIDS
Verifying Officials from modifying contractor eligibility data (specifically, the CAC
expiration date) without approval from the Trusted Agent in CVS. Further, the Deputy
Under Secretary stated that, to accurately manage identity in DEERS, certain data fields
would remain open for update by the Verifying Official in accordance with
DEERS/RAPIDS procedures (for example, name change due to marriage where a
scanned marriage certificate is required in DEERS).

Our Response
The Deputy Under Secretary’s comments were partially responsive. We agree that the
lock down is intended to prevent Verifying Officials from modifying contractor data
without approval from the Trusted Agent in CVS, and we acknowledge the need for
certain data fields to remain open for modification by the Verifying Official (such as a
name change due to marriage). However, the Deputy Under Secretary did not specify
which data fields would remain open or the rationale for keeping those fields open for
modification by the Verifying Official. We request that the USD (P&R) provide
comments on the final report by October 31, 2008, specifying the RAPIDS data fields
that will remain open and the rationale for allowing Verifying Officials to modify those
data fields.

       (2) Ensure that data fields from the DD Form 1172-2, such as the pay grade
           and Geneva Conventions category, are added to the Contractor
           Verification System, and that Trusted Agents subsequently and
           accurately complete and transfer all fields to the Defense Enrollment
           Eligibility and Reporting System/Real-time Automated Personnel
           Identification System.

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
USD (P&R), agreed, stating that the October 2008 DEERS/RAPIDS lock down should
help ensure that data entered into CVS are accurately transferred to DEERS/RAPIDS.

Our Response
The Deputy Under Secretary agreed; however, we concluded from the response that our
recommendation was unclear. As a result, we revised the recommendation to clarify the



                                           18
need to ensure that certain data fields from the DD Form 1172-2 are included as data
fields in CVS, and are subsequently completed and transferred to DEERS/RAPIDS by
the Trusted Agents. We request that the USD (P&R) review the revised recommendation
and provide comments on the final report by October 31, 2008.

   b. Implement procedures to prevent:

       (1) Contractors from having multiple active contractor Common Access
           Cards, unless one is for military service.

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
USD (P&R), agreed in principle, stating that such procedures have already been
implemented by DoD. The Deputy Under Secretary stated that it is possible for an
individual to be a DoD civilian, Military Service reservist, adjunct professor, and
contractor at the same time, with each personnel category qualifying an individual for a
separate CAC. However, the Deputy Under Secretary stated that it is DoD policy to issue
only one active CAC per personnel category, including contractors, and all RAPIDS
versions currently enforce this policy.

Our Response
Although the Deputy Under Secretary agreed, we consider the comments nonresponsive.
We acknowledge that, according to DoD policy, only one active CAC can be issued per
personnel category. However, as of July 19, 2007, our analysis of DMDC data showed
that 772 U.S. and foreign national contractors had multiple active contractor CACs
(see Appendix C for details of the number of contractors and CAC types). Because our
analysis of the data shows that this DoD policy is not consistently implemented
throughout the Department, we request that the USD (P&R) provide comments on the
final report by October 31, 2008, addressing specific actions that will be taken to ensure
that the DoD policy for issuing one active CAC per contractor is implemented and
enforced.

       (2) Verifying Officials from reissuing contractor Common Access Cards
           when contractors report them as “lost” unless the Verifying Officials
           coordinate with responsible Trusted Agents to confirm whether the
           contractors still have a valid need for Common Access Cards.

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
USD (P&R), disagreed. The Deputy Under Secretary stated that the current process
requires CVS Trusted Agents to reverify contractors’ continued affiliation with DoD and
need for a CAC every 6 months, making any additional reverification redundant. The
Deputy Under Secretary further explained that the USD (P&R) will establish and publish
guidelines with steps the Trusted Agent must take to reverify a record in conjunction with
the policy that is under development.



                                            19
Our Response
The Deputy Under Secretary’s comments were nonresponsive; however, we concluded
from the response that our recommendation was unclear. As a result, we revised the
recommendation to clarify the need for Verifying Officials to ensure that the contractor,
when attempting to replace a lost CAC, is still eligible and has a continued need for a
CAC by coordinating with the responsible Trusted Agent. We request that the
USD (P&R) review the revised recommendation and provide comments on the final
report by October 31, 2008.

   c. Implement a process that periodically informs Trusted Agents (Government
      sponsors) when their contractors have not turned in revoked Common
      Access Cards.

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
USD (P&R), disagreed. The Deputy Under Secretary stated that her office recognizes
that there are challenges associated with the retrieval of revoked CACs, but that
implementing an automated means to periodically inform Trusted Agents when CACs
have not been returned will not help with tracking revoked cards. Instead, the Deputy
Under Secretary stated that DoD established mechanisms to account for virtually
100 percent of the CACs that are revoked—to include cards reported lost or stolen, not
functioning properly, terminated due to separation, or expired—and that these cards are
shown as inactive within the CAC issuance system and certificates are revoked by the
DoD Public Key Infrastructure. The Deputy Under Secretary further stated that, although
DoD can account for a majority of the cards that have been returned to DMDC for
disposition, some cards cannot be physically accounted for because they were lost or
stolen, no longer functional, or worn beyond recognition. The Deputy Under Secretary
explained that periodic reports to CVS Trusted Agents on CACs reported as not returned
could potentially include revoked cards that were returned and properly destroyed. As a
result, the Deputy Under Secretary recognized the need to improve procedures for the
return of CACs as a controlled item, including tighter contractual obligations, but stated
that this would be done using policy and oversight efforts associated with revocation and
retrieval of CACs instead of automated methods.

Our Response
The Deputy Under Secretary’s proposed corrective actions are partially responsive.
Specifically, we acknowledge the Deputy Under Secretary’s recognition of the need for
improved procedures for the return of CACs as a controlled item, including tighter
contractual obligations, and that policy and oversight efforts, if properly enforced, will
facilitate the retrieval of revoked CACs. However, for the Deputy Under Secretary’s
comments to be fully responsive, we request that the USD (P&R) provide comments on
the final report by October 31, 2008, specifying the policy and oversight efforts that will
be implemented to enforce the revocation and retrieval of CACs.

   d. Require the Army and Navy Defense Enrollment Eligibility and Reporting
      System/ Real-time Automated Personnel Identification System program


                                             20
       offices to rescind the guidance for issuing 3-year Common Access Cards
       regardless of the contractors’ terms of service. Rather, the Army and Navy
       Defense Enrollment Eligibility Reporting System/Real-time Automated
       Personnel Identification System program offices should direct issuance of
       Common Access Cards in accordance with DoD policy.

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
USD (P&R), agreed, stating that the Defense Human Resources Activity Identification
Card Policy Office sent e-mails to the DEERS/RAPIDS Service project offices to ensure
that contractor CACs are issued with expiration dates in accordance with current policy.
The Deputy Under Secretary also stated that she believed the DEERS/RAPIDS Service
project offices rescinded any guidance that was contrary in nature.

Our Response
The Deputy Under Secretary’s comments were responsive, and no additional comments
are required.

   e. In accordance with DoD Instruction 5025.01, “DoD Directives Program,”
      October 28, 2007:

       (1) Incorporate or convert Under Secretary of Defense Memorandum,
           “DEERS/RAPIDS Lock Down for Contractors,” November 10, 2005, into
           a DoD issuance, reissue the memorandum, or cancel it.

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
USD (P&R), agreed, stating that as the designated lead for the implementation of
Homeland Security Presidential Directive-12, the USD (P&R) will incorporate the
USD (P&R) Memorandum, “DEERS/RAPIDS Lock Down for Contractors,”
November 10, 2005, as well as any additional CAC-related policies under the
USD (P&R), into new issuances currently in development. The Deputy Under Secretary
also stated that the new issuances include the draft Deputy Secretary of Defense
Directive-Type Memorandum 08-006 and the draft USD (P&R) Directive-Type
Memorandum 08-003 that outline the Department’s roles and responsibilities for CAC
and Homeland Security Presidential Directive-12-related items within the scope of the
audit. Finally, the Deputy Under Secretary stated that, as required by DoD Directive
5025.01, “DoD Directives Program,” October 28, 2007, these Directive-Type
Memoranda will be converted into a DoD instruction within 180 days of their release and
will include any unaddressed policy-related items associated with controls over
contractor CACs to the maximum extent possible.

Our Response
The Deputy Under Secretary’s comments were responsive, and no additional comments
are required.



                                           21
       (2) Coordinate with the DoD Chief Information officer to incorporate or
           convert Office of the Secretary of Defense Memorandum, “Common
           Access Card (CAC),” January 16, 2001, into a DoD issuance, reissue the
           memorandum, or cancel it.

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
USD (P&R), agreed and addressed the planned corrective actions in the response to
Recommendation A.3.e.(1).

Our Response
The Deputy Under Secretary’s comments were responsive, and no additional comments
are required.

A.4. We recommend that the Under Secretary of Defense for Intelligence
implement policy that, at a minimum, specifies background investigation
requirements and the method and system needed to verify the results of the
background investigations for both U.S. and foreign national contractors who will
be issued Common Access Cards.

Client Comments
The Under Secretary of Defense for Intelligence neither agreed nor disagreed. However,
the Under Secretary stated that Federal standards mandate the NACI as the minimum
background investigation for Homeland Security Presidential Directive-12 credentialing.
The Under Secretary stated that interim credentials may be issued upon a favorable
fingerprint check and the submission of the requisite investigation, that they are
reviewing solutions to facilitate electronic verification of background investigations, and
that they expect implementation by the end of 2009. The Under Secretary also stated
that, in partnership with the Office of the Secretary of Defense, the Services, and agency
staff, his office is working on policy guidance that will outline the investigative
requirement for CAC credentialing throughout DoD. The Under Secretary added that
CAC credentialing standards will apply to all DoD employees, Military Services,
contractors (in staff-like positions requiring logical access), and other DoD personnel
requiring physical access for 6 months or more. Finally, the Under Secretary stated that
specific guidance to establish credentialing and background investigation standards for
foreign nationals (non-U.S. citizens, including contractors) is under development with the
Department of State, and that CAC issuance to foreign nationals will be limited and
strictly controlled.

Our Response
The Under Secretary’s comments were responsive, and no additional comments are
required.




                                            22
A.5. We recommend that the Under Secretary of Defense for Personnel and
Readiness, Under Secretary of Defense for Acquisition, Technology, and Logistics,
and the Under Secretary of Defense for Intelligence:

   a. Designate within 90 days the lead organization responsible for developing
      and implementing a joint contractor Common Access Card policy (also see
      Recommendation D.2.).

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
USD (P&R), agreed, stating that the USD (P&R) is the lead for Homeland Security
Presidential Directive-12, which includes coordination of the policies associated with
CAC issuance, and that policy development is underway to address the items outlined in
the recommendation.

The Principal Deputy Director, Acquisition Resources and Analysis, responding for the
USD (AT&L), agreed, stating that the USD (AT&L) will work with the USD (P&R) and
the Under Secretary of Defense for Intelligence to implement these recommendations.

The Under Secretary of Defense for Intelligence partially agreed, stating that as the
Principal Staff Assistant for Physical Security (access control), Personnel Security
(background investigations), and the National Industrial Security Program (contractors),
his office would, in coordination with the USD (P&R) and the USD (AT&L), develop
policy for the DoD CAC for their areas of responsibility. In addition, the Under
Secretary stated that contractors who are not eligible for the DoD CAC will receive a
local or a DoD alternate, physical-access-only credential, which is under development.
Additionally, the Under Secretary stated that his office is developing separate,
comprehensive security policy for all categories of individuals requiring access to
DoD-owned and -controlled facilities worldwide, which will mandate minimum access
control standards, procedures, and equipment, including requirements for contractors.

Our Response
The Deputy Under Secretary’s, Principal Deputy Director’s, and Under Secretary’s
comments were responsive, and no additional comments are required.

   b. Implement the joint policy, which at a minimum should require:

       (1) Trusted Agents to coordinate with contracting and security personnel
           when establishing contractors’ initial and continued affiliation with DoD
           and need for Common Access Cards, and to maintain evidence of this
           coordination.
       (2) Standard procedures resulting from Recommendation A.4. for
           confirming background checks for contractors applying for Common
           Access Cards.
       (3) A limit on the number of contractors a Trusted Agent may sponsor.



                                           23
       (4) Trusted Agents to follow up with contractors who have not returned their
           Common Access Cards once Recommendation A.3.c. is implemented.
       (5) Specific Government personnel to recover contractor Common Access
           Cards when they are no longer needed.
       (6) Trusted Agents to inform security personnel when contractors do not
           return revoked Common Access Cards. In addition, security personnel
           should consider taking action under section 701, title 18, United States
           Code.

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
USD (P&R), agreed with Recommendations A.5.b.(1), (2), (3), (5), and (6), stating that
policy development is underway to address these items. The Deputy Under Secretary
disagreed with Recommendation A.5.b.(4), stating that although she recognizes the
challenges associated with CAC retrieval, instead of attempting to implement the
automated notifications referenced in A.3.c., the USD (P&R) will coordinate and
establish CAC retrieval policies and procedures.

The Principal Deputy Director, Acquisition Resources and Analysis, responding for the
USD (AT&L), agreed, stating that the USD (AT&L) will work with the USD (P&R) and
the Under Secretary of Defense for Intelligence to implement these recommendations.

The Under Secretary of Defense for Intelligence agreed, stating that his office will
implement appropriate policy as referenced and will address physical security
requirements for CACs as controlled, U.S. Government property that requires the
protection of personally identifiable information; a reporting requirement for lost or
stolen credentials; and referral to the Department of Justice for violations of section 701,
title 18, United States Code and section 797, title 50, United States Code.

Our Response
Although the Deputy Under Secretary disagreed with Recommendation A.5.b.(4)., the
proposed corrective action to coordinate and establish CAC retrieval policies and
procedures satisfied the intent of this recommendation. Therefore, the Deputy Under
Secretary’s, Principal Deputy Director’s, and Under Secretary’s comments were
responsive, and no additional comments are required.

A.6. We recommend that the Director, Defense Manpower Data Center add a
notification screen in the Contractor Verification System that, at a minimum,
informs applicants about section 701, title 18, United States Code and explains that
revoked Common Access Cards must be returned to specific Government personnel
as determined in Recommendation A.5.b.(5).

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
Director, DMDC, agreed, stating that DMDC will implement a CVS notification message
during the second quarter of FY 2009 to inform contractor applicants of their


                                             24
responsibility to return terminated or expired CACs to a RAPIDS facility or to specific
Government personnel that will be determined during the course of policy development.
The Deputy Under Secretary also stated that the notification message will include a
reference to section 701, title 18, United States Code and that this information would be
added to the CVS online training and user guide.

Our Response
The Deputy Under Secretary’s comments were responsive, and no additional comments
are required.




                                            25
26
Note: Figure 5 depicts the typical DoD contractor CAC life cycle based on 67 CVS and RAPIDS site visits.
                                                                                Figure 5. Life Cycle of the DoD Contractor Common Access Card




                                                                                                             27
28
Finding B. Oversight of Common Access
Cards for Contractors Deploying to
Southwest Asia
The Army did not verify that Kellogg, Brown, and Root, Inc. (KBR) contractors
deploying to Southwest Asia had background checks or Government approval before
issuing them CACs, or that CACs were recovered after contractor services ended. These
weaknesses pose a potential national security risk because, as of July 19, 2007, as many
as 25,428 U.S. and foreign national KBR contractors who deployed in support of
Southwest Asia operations may have unauthorized access to DoD resources, installations,
and sensitive information worldwide. Better Army oversight and CAC life-cycle
procedures are required to minimize this risk.

KBR Deployment Processing Center
KBR has its own Deployment Processing Center in Houston, Texas, which provides
training, equipment, and CACs to KBR contractors deploying to Southwest Asia.
Figure 7 depicts the KBR CAC life cycle for contractors deploying to Southwest Asia.
The CAC issuance process at the KBR Deployment Processing Center occurred as
follows.

     •   KBR hired U.S. or foreign national contractors.

     •   Kroll Background America, Inc. (hereafter referred to as Kroll), a KBR
         subcontractor, was hired by KBR to perform background checks on KBR
         contractors.

     •   KBR prepared a DD Form 1172-2 for its contractors and notarized photocopies
         of their passports. KBR sent this information to a contractor at Fort Belvoir,
         Virginia.

     •   A contractor working with Army Materiel Command (AMC) at Fort Belvoir,
         Virginia, reviewed the DD Forms 1172-2 and the notarized passport
         photocopies. If no errors were detected, the contractor distributed the
         DD Forms 1172-2 to Government officials for signature and then sent the signed
         forms back to the KBR Deployment Processing Center.

     •   SI International, Inc. (SI International) a contractor at the KBR Deployment
         Processing Center, used RAPIDS to issue CACs to KBR contractors based on
         their signed DD Forms 1172-2.

AMC and the Deputy Under Secretary of the Army for Business Transformation
(DUSA-BT) are responsible for monitoring the CAC life cycle at the KBR Deployment
Processing Center. Because the KBR contractors were receiving CACs for work under



                                           29
contract to AMC, AMC was responsible for CAC approval, revocation, and recovery.
Both AMC and DUSA-BT were responsible for monitoring CAC issuance at the
SI International RAPIDS site. The most recent DUSA-BT contract was awarded in
March 2008 for 1 year with an option period for 1 additional year.

Contractor Background
AMC officials had no assurance that KBR contractors received proper background
investigations before being issued CACs. AMC officials relied on background
investigations performed by Kroll, a KBR subcontractor. However, the subcontractor’s
criteria for the background investigations performed on KBR contractors did not meet
Government requirements for investigations.

As discussed in finding A, Homeland Security Presidential Directive-12 and Federal
Information Processing Standard 201-1 require contractors seeking a CAC to have NACI
or equivalent investigations (see page 9 for details on background investigation
requirements). KBR hired Kroll to perform background investigations for the company’s
U.S. and foreign national contractors deploying to Southwest Asia. However, the
investigations did not meet the requirements of a NACI or equivalent background
investigation.16 Table 4 contrasts NACI requirements with those of the background
investigations performed by Kroll for KBR employees.

        Table 4. Comparison of Background Investigation Requirements
     NACI (Required)               KBR Subcontractor Investigation
                          U.S. Background Check       Foreign National Check
Law enforcement records,                 Checks Federal records,                 Not Completed
5 years                               criminal records, outstanding
                                        warrants for arrest, “Also
FBI name check                         Known As” records, Social                 Not Completed
                                        Security number, county
FBI National Criminal                records, probation, and pending             Not Completed
History Fingerprint Check                     Court Records
Employment records,                         Not Completed                        Not Completed
5 years
Education records, 5 years                  Not Completed                        Not Completed
Residential records, 3 years              Address Histories                      Not Completed

References                                  Not Completed                        Not Completed
Defense Clearance and                       Not Completed                        Not Completed
Investigations Index
Security/Suitability                        Not Completed                        Not Completed
Investigations Index


16
 For our statistical sample analysis in finding A, 27 of 30 contractors were issued their CACs at the KBR
Deployment Processing Center without a NACI or equivalent background investigation.


                                                    30
The Kroll background investigations of U.S. contractors were more thorough than those
of foreign national contractors, who were required to provide only a 7-year police record
from their country of origin. Kroll’s only contractual requirement for foreign nationals
was to verify that the police record was authentic. Army officials allowed U.S. and
foreign national contractors to obtain a CAC without the required background
investigation. This practice poses a potential national security risk that may result in
unauthorized access to DoD resources, installations, and sensitive information
worldwide.

Government Sponsor’s Approval
AMC officials do not know whether KBR contractors were properly sponsored before
they were issued CACs. Specifically, Government officials sponsoring KBR contractors
were geographically removed, requiring these officials to depend on KBR. Additionally,
AMC officials allowed the KBR contractors and foreign nationals to use the
DD Form 1172-2 instead of the Government mandated CVS to obtain sponsorship for the
CAC. Government officials also relied on a contractor to sponsor KBR contractors.

Use of DD Form 1172-2
As of July 2008, KBR contractors deploying to Southwest Asia were not required to
apply for a CAC through CVS. Therefore, CVS reverification was bypassed, signifying
that the Army had no assurance that KBR contractors had a continued need for CACs
(see page 12 for CVS reverification requirements). Instead of using CVS, these
contractors applied for their CACs using DD Form 1172-2. According to KBR officials,
the company deployed 1,200 to 1,600 contractors per month, making the use of CVS
difficult. Considering the number of KBR contractors processed every month, Army
CAC program officials agreed that requiring KBR to use CVS would restrict the Army’s
mission in Southwest Asia. We were unable to obtain any evidence to support these
opinions, and there was no official guidance issued by the Army CAC program office for
this practice.

The P&R Memorandum required the use of CVS for all contractors and did not authorize
the continued use of the DD Form 1172-2. However, AMC officials believed they had a
waiver to this policy because they received an e-mail from the DEERS/RAPIDS Project
Office, U.S. Army Human Resources Command. This e-mail stated that AMC could
continue using DD Form 1172-2 to authorize CAC issuance and that an official waiver
from USD (P&R) was not necessary. According to the Office of Inspector General,
Office of General Counsel, U.S. Army Human Resources Command had no authority to
waive a policy issued by USD (P&R).

KBR Government Sponsors
Government officials located at Fort Belvoir, Virginia, were supposed to sponsor KBR
contractors in Houston, Texas, who were applying for CACs. However, a contractor
reviewed and was also authorized to approve KBR contractors’ DD Forms 1172-2 by
comparing them with photocopies of applicants’ passports. Verification of background
checks, which is normally a Government function, was not performed on KBR
contractors prior to approving the contractors’ DD Forms 1172-2. According to AMC


                                           31
officials, the contractor reviewed the DD Forms 1172-2 and placed them on the
Government officials’ desks for signature. In effect, a contractor was sponsoring
contractors, even though, technically, Government officials were signing the
DD Forms 1172-2.

Army Oversight of CAC Issuance at the RAPIDS Site
Run by SI International
Officials from AMC and the Office of the DUSA-BT did not provide oversight of the
RAPIDS CAC issuance site collocated with the KBR Deployment Processing Center in
Houston, Texas. This site was operated by SI International, which was awarded a task
order by AMC using a DUSA-BT contracting vehicle. The contractor-run RAPIDS site
issues CACs to all eligible recipients, but the majority of CAC recipients using this site
were KBR contractors deploying to Southwest Asia.

AMC and DUSA-BT relied on contractors to perform contract oversight. Specifically,
SI International provided monthly status reports to the contracting officer’s representative
and functional representative.17 In these reports, SI International reported its own
performance to DUSA-BT, a practice that gave no assurance that contract requirements
were being achieved. In addition, prior to March 2008, the functional representative for
the contract was a contractor who was not on-site to assess SI International’s
performance. The task order awarded in March 2008 appointed a Government employee
to be the functional representative; however, this individual also was not on-site to assess
SI International’s performance. See Figure 6 for the current organization of oversight for
this contract.

                                          Deputy Under Secretary of the Army for Business
                                                         Transformation


                                                 Contracting Officer’s Representative
                                                           Arlington, VA


          Functional Representative (AMC)
                 Fort Belvoir, VA


                                              RAPIDS Site Run by SI International, Inc.
                                                          Houston, TX

         Figure 6. Organization of Oversight for the SI International Contract


17
  DUSA-BT defines the functional representative as the person who serves as the on-site representative to
directly observe and assess contractor performance against contract performance standards defined in the
contract Performance Requirements Summary.


                                                    32
We tested two of the three contract performance standards in the SI International
contract.

     •   All issued CACs must be accurate, comply with regulatory guidance, and identify
         the appropriate privileges for each recipient.

     •   Data entries in RAPIDS must be 100-percent accurate.

Our testing showed that these performance standards were not achieved. Specific
deviations included the following.

     •   CVS was not used to sponsor contractors for CACs.

     •   Approximately 99 percent of all CACs issued at the site, which were still active as
         of July 19, 2007, were automatically valid for a 3-year period instead of the
         contract period of performance.

     •   Nine out of thirty CACs were issued without sponsorship based on reviewed
         DD Forms 1172-2.

     •   RAPIDS Verifying Officials modified information approved on DD Form 1172-2
         for 5 out of 30 CACs tested.

To improve performance at the SI International RAPIDS site, the AMC functional
representative should assess contractor performance, and DUSA-BT should address the
performance assessment with AMC and SI International during the quarterly interim
progress reviews as required by the task order. This oversight should occur prior to
awarding option periods to SI International for the RAPIDS CAC issuance contract.

CAC Recovery
KBR officials stated that when contractors redeploy to the United States from Southwest
Asia, the CACs are collected by KBR and submitted to military officials. However, from
January 1 through June 30, 2007, 957 out of 1,966 revoked KBR contractor CACs were
not recovered by DoD (48.7 percent). In addition, we could not determine whether DoD
recovered 297, or 15.1 percent, of the 1,966 revoked CACs. CAC recovery did not
always occur because the CAC and P&R Memoranda did not specify Government
officials responsible for collecting revoked CACs. Also, CACs were issued to KBR
contractors for 3 years, the maximum period authorized for a CAC. This poses a
potential national security risk because if a KBR contractor’s CAC was revoked after
1 year18 but not recovered, the contractor could still use the CAC as a “flash pass” to gain
physical access to DoD installations worldwide.


18
 Based on interviews with CVS Trusted Agents, most service contracts are issued for a 1-year period.
Therefore, most contractor CACs should be valid for only 1 year.


                                                   33
Conclusion
Army officials did not perform the necessary oversight to verify that KBR contractors
deploying to Southwest Asia had authorized access to DoD resources, installations, and
sensitive information. AMC officials relied on a KBR subcontractor to perform
background investigations of KBR contractors; however, the investigations did not meet
Government requirements for CAC issuance. AMC officials also relied on a contractor
instead of a Government employee to sponsor KBR contractors, and relied on KBR to
recover CACs. Further, AMC officials did not use CVS, which offered better
management of contractor CACs than did DD Form 1172-2. Finally, AMC and
DUSA-BT relied on SI International to issue CACs to KBR contractors without
Government oversight to ensure SI International was complying with contractual
requirements. See Figure 7 at the end of this finding for a summary of the contractor
CAC life cycle for KBR contractors in Southwest Asia.

A subsequent audit of contractor CACs in Southwest Asia may make additional
recommendations about the CAC life cycle for KBR contractors deploying to Southwest
Asia.

Client Comments on the Finding and Our Response
Client Comments
The Program Manager, HRsolutions Program Office, responding for the DUSA-BT,
provided general comments on the finding. Specifically, the Program Manager stated
that the RAPIDS site that SI International operates is housed within the KBR
Deployment Processing Center. The Program Manager also stated that eight 3-month
option periods were awarded; however, the current contract (awarded in March 2008)
was for 1 year with an option period for 1 additional year.

The Program Manager also stated that, although SI International reports its own
performance, those monthly performance reports are reviewed and accepted by the
Government functional representative and the quality assurance representative in the
HRsolutions Program Office. In addition, the Program Manager stated that
SI International operates in accordance with a quality control plan specific to its task
order, which is approved by the contracting officer’s representative and that the
functional representative for this site is a Government civilian as are all his office’s other
(140 or more) functional representatives.

Finally, the Program Manager stated that SI International did not recall issuing CACs to
contractors without Government sponsorship, and to SI International’s knowledge, all
CACs were issued with authorized Government signatures. Further, the Program
Manager stated that SI International RAPIDS Verifying Officials did modify information
approved on DD Forms 1172-2, for example, by fixing misspellings, but the
SI International RAPIDS Verifying Officials did not change pertinent data on
entitlements or authorized periods of entitlement.




                                              34
Our Response
We acknowledge that the RAPIDS site operated by SI International is housed within the
KBR Deployment Processing Center. In addition, we updated the finding to clarify that
the most recent task order, for SI International’s services, was awarded with 1 base year
and an option period for 1 additional year.

In addition, we acknowledge that SI International routes its monthly status reports
through Government officials; however, the task order states that the Government will
evaluate the contractor’s performance under the contract in accordance with the
performance assessment plan. According to the performance assessment plan, the
functional representative is responsible for conducting quarterly visits and assessing
contractor performance against contract performance standards. Therefore, the functional
representative should have assessed SI International’s performance.

We updated the finding to indicate that the functional representative, as of March 2008,
was a Government civilian. However, during the audit we obtained evidence that prior to
March 2008, the functional representative was a contractor. Also, although
SI International does not recall issuing CACs without Government sponsorship, our
evidence shows that SI International did issue CACs to contractors without a
DD Form 1172-2 and changed authorized periods of entitlement (expiration dates),
e-mail certificate privileges, and Geneva Conventions codes.

Recommendations, Client Comments, and Our
Response

Revised, Added, and Renumbered Recommendations
As a result of client comments, we revised draft Recommendation B.2. to clarify the
nature of the actions needed to monitor the RAPIDS site run by SI International at the
KBR Deployment Processing Center. Specifically, Recommendation B.2. was revised to
require the functional representative, working for the Logistics Civil Augmentation
Program Operations Directorate, to perform contract monitoring functions and to report
contractor performance to DUSA-BT. Also, Recommendation B.3. was added to require
DUSA-BT to facilitate quarterly interim progress reviews, in accordance with the
SI International task order. In addition, draft Recommendation B.3. was renumbered as
Recommendation B.4.

B.1. We recommend that the Commander, Army Materiel Command:

       a. Mandate use of the Contractor Verification System at the Kellogg, Brown,
and Root, Inc. Deployment Processing Center and appoint Government employees
to sponsor Kellogg, Brown, and Root, Inc. contractors in the Contractor
Verification System in accordance with the Under Secretary of Defense for
Personnel and Readiness Memorandum, “DEERS/RAPIDS Lock Down for
Contractors,” November 10, 2005.



                                            35
Client Comments
The Executive Deputy to the Commanding General, AMC, responding for the
Commander, AMC, agreed, stating that AMC will ensure compliance and would use
CVS by September 1, 2008.

Our Response
The Executive Deputy’s comments were partially responsive. We acknowledge the
Executive Deputy’s actions to ensure compliance and use CVS by September 1, 2008.
However, the Executive Deputy did not address whether Government employees would
be appointed to perform TASM and Trusted Agent duties. Therefore, we request that the
Commander, AMC, provide comments on the final report by October 31, 2008,
addressing the appointment of Government employees to sponsor KBR contractors in
CVS.

       b. Verify that Kellogg, Brown, and Root, Inc. contractors undergo
background checks that meet Homeland Security Presidential Directive-12 and
Federal Information Processing Standard 201-1 requirements prior to issuing these
contractors Common Access Cards, and maintain evidence of these background
checks, (See Recommendation A.5. for additional information.)

Client Comments
The Executive Deputy to the Commanding General, AMC, responding for the
Commander, AMC, agreed. The Executive Deputy acknowledged that KBR contractors
should undergo background checks and explained procedures that AMC will implement
to verify that KBR contractors undergo background checks.

Our Response
The Executive Deputy’s comments were partially responsive. We agree that the steps
outlined by the Executive Deputy will correct many of the identified weaknesses.
However, the Executive Deputy did not provide details regarding what evidence would
be maintained for verifying background checks prior to CAC issuance. Therefore, we
request that the Commander, AMC, provide comments on the final report by
October 31, 2008, that address maintaining appropriate evidence of background checks.

   c. Confirm DoD affiliation of contractors before approving their Common
      Access Card requests, and maintain evidence of such confirmation.

Client Comments
The Executive Deputy to the Commanding General, AMC, responding for the
Commander, AMC, agreed. The Executive Deputy explained procedures that AMC will
implement to confirm the contractors’ affiliation with DoD before approving their CACs
and stated AMC will maintain a file of such information.




                                          36
Our Response
The Executive Deputy’s comments were responsive, and no additional comments are
required.

   d. Implement procedures to recover Common Access Cards from Kellogg,
      Brown, and Root, Inc. contractors when the cards are expired or no longer
      needed.

Client Comments
The Executive Deputy to the Commanding General, AMC, responding for the
Commander, AMC, agreed. The Executive Deputy explained procedures that AMC will
implement to recover contractor-issued CACs.

Our Response
The Executive Deputy’s comments were responsive, and no additional comments are
required.

B.2. We recommend that the Commander, Army Materiel Command require the
functional representative to conduct site visits to the SI International Real-time
Automated Personnel Identification System site at the Kellogg, Brown, and
Root, Inc. Deployment Processing Center to assess contractor performance, in
accordance with the task order, and to provide the results of the performance
assessment to the Office of the Deputy Under Secretary of the Army for Business
Transformation during the quarterly interim progress reviews required by the task
order.

Client Comments
The Program Manager, HRsolutions Program Office, responding for DUSA-BT,
disagreed, stating that the HRsolutions Program Office was not staffed to assign
personnel to monitor work at all of its customers’ sites. The Program Manager stated that
the HRsolutions Program Office monitors task order performance through interim
reviews, monthly reports, the quality control plan, and dialogue with the contracting
officer’s representative.

The Program Manager stated that AMC used a DUSA-BT contract to purchase a
requirement that was awarded by the Army’s Contracting Center of Excellence. The
Program Manager stated that, in accordance with the task order, the functional
representative is tasked with conducting quarterly visits and assessing contractor
performance against contract performance standards. The Program Manager further
stated that the contracting officer’s representative employed by DUSA-BT is responsible
for execution and oversight.

The Program Manager acknowledged that no contracting officer’s representative or other
Government employee was on site at the RAPIDS facility within the KBR Deployment
Processing Center. However, the Program Manager stated that in the past, AMC


                                           37
Logistics Civil Augmentation Program employees visited the KBR Deployment
Processing Center to perform oversight and ensure security requirements were met. The
Program Manager also stated that AMC relied on Defense Contract Management Agency
employees in the Houston area to visit the SI International RAPIDS site within the KBR
Deployment Processing Center when a Government presence was required. Further, the
Program Manager stated that monthly reports from the contractor, SI International,
indicate that the site was in compliance with contractual requirements.

The Program Manager recommended that AMC continue to make quarterly site visits to
the SI International RAPIDS site to monitor the CAC process, and stated that DUSA-BT
would continue to monitor the SI International task order in the same manner as his office
did the other 140 or more task orders.

Our Response
The Program Manager’s comments were partially responsive. We acknowledge that
AMC, as the customer, should assess the contractor’s performance, but we also recognize
that DUSA-BT is ultimately responsible for contract execution and oversight and should
facilitate quarterly progress reviews to ensure that appropriate performance monitoring
occurs. Although SI International’s monthly status reports indicate that performance
standards were met, these reports were written by the contractor assessing its own
performance. Therefore, we revised Recommendation B.2. to require the functional
representative, working for the Logistics Civil Augmentation Program Operations
Directorate, to perform contract monitoring functions and report contractor performance
to DUSA-BT, in accordance with the task order. In addition, we added
Recommendation B.3. to require DUSA-BT to facilitate quarterly progress reviews, in
accordance with the SI International task order. We request that the Commander, AMC,
review the revised recommendation and provide comments on the final report by
October 31, 2008.

B.3. We recommend that the Deputy Under Secretary of the Army for Business
Transformation facilitate quarterly progress reviews of the Common Access Card
issuance site run by SI International with representatives from the Army Materiel
Command, as required in the SI International task order, and maintain evidence of
what occurred during these reviews in the official contract file.

Client Comments
See the discussion under Recommendation B.2.

Our Response
As a result of comments from the Program Manager, HRsolutions Program Office, we
added Recommendation B.3. to require DUSA-BT to facilitate quarterly progress
reviews, in accordance with the SI International task order. Therefore, we request that
DUSA-BT review the added recommendation and provide comments on the final report
by October 31, 2008.




                                           38
B.4. We recommend that the Adjutant General, U.S. Army Human Resources
Command inform the U.S. Army Defense Enrollment Eligibility and Reporting
System / Real-time Automated Personnel Identification System Project Office that it
is not permitted to waive DoD policy unless explicitly delegated that authority.

Client Comments
The Adjutant General, U.S. Army Human Resources Command agreed, stating that
corrective action has been taken to ensure that the Army DEERS/RAPIDS project office
complies with DoD identity card issuance policies and procedures. The Adjutant General
also stated that the Army DEERS/RAPIDS Project Office has been notified that any
deviation from DoD policy will not occur without prior coordination and approval from
the Office of the Secretary of Defense.

Our Response
The Adjutant General’s comments were responsive, and no additional comments are
required.




                                         39
40
Figure 7. CAC Life Cycle for KBR Contractors Deploying SWA




                           41
42
Finding C. Identification of U.S. and Foreign
National Contractors
U.S. and foreign national contractors with CACs were misidentified as U.S. Government
personnel. Specifically, DMDC data indicated that:

   •   40,055 out of 420,822 contractor CACs indicated their holders had General
       Schedule (GS) pay grades and were Government personnel; and

   •   208,636 out of 289,352 U.S. contractors and 3,215 out of 3,459 foreign national
       contractors with CAC e-mail signature and encryption certificates had e-mail
       addresses identifying them as U.S. Government personnel.

This misidentification poses a potential national security risk because U.S. and foreign
national contractors could misrepresent themselves both in person and on DoD networks
to improperly obtain sensitive information or Government privileges worldwide.
USD (P&R) should implement additional system controls for CVS and RAPIDS to
prevent misidentification of contractors.

Classification of U.S. Government Personnel
In general, the CACs of civilians and contractors are assigned one of four personnel
classifications: GS, Senior Executive Service (SES), GS-Equivalent, or Other. Both GS
and SES classifications represent pay grades for Federal civilian employees, while
GS-Equivalent or Other are reserved for contractors.

Pay Grade
Out of 420,822 DoD and non-DoD contractors, approximately 9.5 percent, or 40,055, had
CACs that were inappropriately assigned GS pay grades. This occurred because
RAPIDS does not include controls to limit pay grade entries to GS-Equivalent or Other
for U.S. and foreign national contractors. In addition, the CVS application, which must
be approved before CAC issuance, does not include sections that would allow Trusted
Agents to:

   •   identify the pay grade of U.S. and foreign national contractors as GS-Equivalent
       or Other, or

   •   distinguish the U.S. and foreign national contractors who require a Geneva
       Conventions CAC (defined on the following page).

Because of these limitations, RAPIDS Verifying Officials enter the pay grades and
Geneva Conventions code based on contractors’ deployment documents. As a result,
contractors with inappropriate pay grades on their CACs could obtain sensitive
information and benefits such as housing and transportation that are available only to
U.S. Government personnel. Additionally, contractors inappropriately classified as a


                                            43
senior civilian Government employee could be given higher priority for transport in
theaters of combat, affecting the combatant Commander’s priorities. This mistaken
precedence could further affect the Commander’s priorities in supporting the warfighter.
Table 5 provides details for the contractor CACs with inappropriate GS pay grades.

                 Table 5. Contractors With Inappropriate GS CACs
                         Pay Grade       Number of Contractors
                           GS-01                  691
                           GS-02                  127
                           GS-03                  236
                           GS-04                  773
                           GS-05                2,588
                           GS-06                1,043
                           GS-07                1,608
                           GS-08                  986
                           GS-09                2,963
                           GS-10                1,405
                           GS-11                3,307
                           GS-12               12,354
                           GS-13                6,670
                           GS-14                2,856
                           GS-15                2,448
                          TOTAL                40,055

In addition, we identified 6 out of 420,822 contractors who were assigned SES pay
grades on their CACs. Although this misclassification did not occur often, RAPIDS
should be modified to disallow both GS and SES pay grades for contractors.

Geneva Conventions CAC
Of the 40,061 contractor CACs that were inappropriately assigned GS or SES pay grades,
40,055 were Geneva Conventions CACs. Contractors are not required to have GS or SES
pay grades to obtain a Geneva Conventions CAC; instead, contractors should be assigned
the pay grade “Other” to prevent contractors from being misidentified as Government
personnel.

The Geneva Conventions Identification Card for Civilians Accompanying the Armed
Forces, referred to as a Geneva Conventions CAC, differs from other types of CACs.
Specifically, Geneva Conventions CACs are issued to civilians and contractors who
accompany the Armed Forces during a conflict, combat, or contingency operation.
Civilians and contractors use the Geneva Conventions CAC to receive commissary,
exchange, morale, welfare, and recreation benefits and medical privileges while they
accompany the Armed Forces.

The Geneva Conventions CAC looks like other CACs; however, there is no green stripe
to identify contractors, and the bearer’s pay grade is printed on the front of the card.




                                           44
Figure 8 shows a Geneva Conventions CAC and details the items printed on the front and
back of the card. Figure 9 shows a contractor or foreign national CAC for comparison.


                                           There is no green color band to help
                                           identify contractors on the Geneva
                                                    Conventions CAC

                                                    Pay Grade




                Figure 8. Geneva Conventions CAC for Contractors




                                                   Color Band




      Figure 9. CAC With Color Band for Contractors and Foreign Nationals

Trusted Agents are more suitable for entering pay grade and Geneva Conventions code
because, as the sponsors, they have more knowledge than Verifying Officials of
contractors’ information and need for CACs. Additionally, some Trusted Agents were
also DoD contracting personnel. Therefore, Trusted Agents were familiar with contract


                                          45
scope and work requirements. If Trusted Agents were responsible for entering pay
grades and Geneva Conventions codes in CVS, and if those fields were blocked in
RAPIDS, Verifying Officials would be unable to modify the data.

E-mail Addresses
DoD Instruction 8500.2, “Information Assurance (IA) Implementation,” February 6,
2003, requires all systems that process sensitive information to have a control called
“affiliation display.” Affiliation display requires contractors to have “.ctr” in their e-mail
addresses, and foreign national contractors to have their two-digit country code in their
e-mail addresses. Table 6 provides examples of proper contractor and foreign national
e-mail addresses, display names, and automated signature blocks, based on DoD
Instruction 8500.2.

     Table 6. Appropriate Contractor and Foreign National E-mail Identifiers*
Affiliation Display                      Examples
DoD user e-mail address                  john.smith.ctr@army.mil or
                                         john.smith.uk@army.mil or
                                         john.smith.ctr.uk@army.mil**
DoD user e-mail display name             John Smith, Contractor,
                                         john.smith.ctr@army.mil; or
                                         John Smith, United Kingdom,
                                         john.smith.uk@army.mil
Automated signature block                John Smith, Contractor, J-6K, Joint Staff or
                                         John Smith, United Kingdom, J-6K, Joint
                                         Staff
*Our primary focus was on the “.mil” and “.ctr” e-mail address identifiers.
** The e-mail identifies contractors who are also foreign nationals.

E-mail addresses for 208,636 out of 289,352 U.S. contractors and 3,215 out of 3,459
foreign national contractors misclassified them as U.S. Government personnel.19
Specifically, contractors’ e-mail addresses were written in the same format as
U.S. Government personnel rather than a format identifying them as being either U.S. or
foreign national contractors. Misclassification occurred because information assurance
personnel did not establish e-mail addresses for U.S. and foreign national contractors in
accordance with DoD Instruction 8500.2. Also, CVS and RAPIDS were not designed to
reject the incorrect e-mail addresses.

Furthermore, Verifying Officials stated that they granted U.S. and foreign national
contractors logical access to DoD networks if the contractors were able to provide a
“.mil” e-mail address. Because the Verifying Official does not sponsor the contractor, it
would be more appropriate for the CVS Trusted Agent to determine whether contractors

19
  Based on the active CAC data obtained from DMDC, all of these contractors had three Public Key
Infrastructure certificates on their CACs. These certificates, among other things, are used to validate an
individual’s identity and right to send and receive sensitive information through DoD Web sites and
military (.mil) e-mail addresses.


                                                     46
require logical access to sensitive DoD networks. However, CVS did not require Trusted
Agents to make this determination.

Conclusion
DMDC data indicated that RAPIDS did not have controls to limit pay grade entries, and
CVS did not have a field for identifying U.S. and foreign national contractors as either
GS-Equivalent or Other. In addition, neither system was designed to reject contractors’
e-mail addresses if they lacked the “.ctr” identifier. As a result, U.S. and foreign national
contractors’ CAC applications were approved in CVS even though their e-mail addresses
lacked proper identifiers, and U.S. and foreign national contractors were issued CACs
with pay grades that misidentified them as U.S. Government employees. Both the
misclassification of pay grades and inappropriate e-mail addresses increase potential risks
to national security in the following ways.

   •   DoD military and civilian personnel may inadvertently disclose controlled or
       sensitive information to U.S. and foreign national contractors.

   •   U.S. and foreign national contractors may misrepresent themselves to gain
       physical and logical access to DoD facilities, resources, and information.

   •   U.S. and foreign national contractors may be able to obtain transportation and
       other support before military personnel in theater, affecting Commanders’
       priorities in supporting the warfighter.

   •   U.S. and foreign national contractors could evade DoD oversight.

These risks would be minimized if pay grades and Geneva Conventions codes were
assigned in CVS by a Trusted Agent, and if RAPIDS had controls to prevent changes to
these fields. Furthermore, risks would be minimized if Trusted Agents recorded their
determination of contractors’ needs for logical access and required appropriate e-mail
addresses before approving CAC applications. USD (P&R) could effect these changes
by implementing a CAC recovery plan and adequate system controls.

Actions Taken by the Defense Manpower Data Center
After we received the Under Secretary of Defense for Program Integration’s comments
on the draft audit report, we received additional comments from the DMDC Chief,
Operations-Personnel Identity Protection Solutions Division. The DMDC Chief stated
that USD (P&R) will implement a “pop-up” screen to inform and remind CVS users that
contractors’ e-mail addresses should include a “.ctr” identifier. The DMDC Chief also
stated that USD (P&R) will release this CVS update during the second quarter of
FY 2009.




                                             47
Recommendations, Client Comments, and Our
Response

Revised Recommendation
As a result of client comments, we revised draft Recommendation C.1.c. to clarify the
need to add a field in CVS for Trusted Agents to document a contractor’s need for Public
Key Infrastructure digital certificates.

C.1. We recommend that the Under Secretary of Defense for Personnel and
Readiness develop and implement the following system controls in the Contractor
Verification System and the Real-time Automated Personnel Identification System:

           a. Classify contractor pay grade as “Other” and reject incorrect e-mail
              addresses, as specified in DoD Instruction 8500.2, “Information
              Assurance (IA) Implementation,” February 3, 2003, for U.S. and
              foreign national contractors in the Contractor Verification System.

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
USD (P&R), partially agreed with implementing system controls to classify pay grades,
but disagreed with implementing system controls to reject incorrect e-mail addresses.
Specifically, the Deputy Under Secretary stated that the USD (P&R) agrees that
inappropriate categorization in the pay grade field needs to be addressed for contractors
eligible for the Geneva Conventions Identification Card for Civilians Accompanying the
Armed Forces. The Deputy Under Secretary explained that RAPIDS, rather than CVS,
requires a pay grade to designate an equivalent Geneva Convention code category in
accordance with DoD Instruction 1000.1, “Identity Cards Required by the Geneva
Conventions,” at the time of CAC issuance, and that classifying contractor pay grade as
“OTHER” in RAPIDS would still require a method to determine the appropriate Geneva
Conventions code category. As a solution, the Deputy Under Secretary proposed that, by
the end of 2008, DMDC modify RAPIDS to allow Verifying Officials to continue to
enter the pay grade for contractors needing Geneva Conventions Identification Cards, but
the printed face of all contractor CACs would display only “OTHER” for the pay grade.

As for implementing system controls that reject incorrect e-mail addresses, the Deputy
Under Secretary stated that e-mail addresses for CAC holders are stored within the DoD
Public Key Infrastructure e-mail signing and e-mail encryption certificates. The Deputy
Under Secretary further stated that these fields have no technical function in CAC Public
Key Infrastructure-based Web site authentication, network authentication, e-mail signing,
or e-mail encrypting. The Deputy Under Secretary determined that, because the
requirement in DoD Instruction 8500.2, “Information Assurance (IA) Implementation,”
February 6, 2003, to designate contractors and foreign nationals is assigned to the
network administrators who establish and manage network and e-mail accounts,
enforcing the rejection of incorrect e-mail addresses within the CAC issuance process



                                           48
would not limit any system risk associated with the naming convention of network and
e-mail accounts.

Our Response
The Deputy Under Secretary’s comments were partially responsive. We agree with the
proposed action for DMDC to modify RAPIDS by the end of 2008 so that the printed
face of all contractor CACs will display only “OTHER” for the pay grade. However, we
disagree that the requirement in DoD Instruction 8500.2, “Information Assurance (IA)
Implementation,” February 6, 2003, to designate contractors and foreign nationals is
assigned to the network administrators who establish and manage network and e-mail
accounts. Specifically, DoD Instruction 8500.2 requires the heads of the DoD
Components, including the USD (P&R), to ensure that DoD information systems acquire
and employ information assurance solutions. These solutions include the control of
“affiliation display,” which requires contractors to have “.ctr” in their e-mail addresses
and foreign national contractors to have their two-digit country code in their e-mail
addresses. Therefore, we request that the USD (P&R) reconsider his position on
Recommendation C.1.a. regarding rejecting incorrect e-mail addresses in CVS and
provide comments on the final report by October 31, 2008.

           b. Lock the pay grade field for contractors and reject incorrect e-mail
              addresses, as specified in DoD Instruction 8500.2, “Information
              Assurance (IA) Implementation,” February 3, 2003, for U.S. and
              foreign national contractors in the Real-time Automated Personnel
              Identification System.

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
USD (P&R), partially agreed and referred to the comments in response to
Recommendation C.1.a.

Our Response
The Deputy Under Secretary’s comments were partially responsive. We agree with the
proposed action for DMDC to modify RAPIDS by the end of 2008 so that the printed
face of all contractor CACs will display only “OTHER” for the pay grade. However, we
disagree that the requirement in DoD Instruction 8500.2, “Information Assurance (IA)
Implementation,” February 6, 2003, to designate contractors and foreign nationals is
assigned to the network administrators who establish and manage network and e-mail
accounts. Specifically, DoD Instruction 8500.2 requires the heads of DoD Components,
including the USD (P&R), to ensure that DoD information systems acquire and employ
information assurance solutions. These solutions include the control of “affiliation
display,” which requires contractors to have “.ctr” in their e-mail addresses and foreign
national contractors to have their two-digit country code in their e-mail addresses.
Therefore, we request that the USD (P&R) reconsider his position on
Recommendation C.1.b. regarding rejecting incorrect e-mail addresses in RAPIDS, and
provide comments on the final report by October 31, 2008.



                                            49
            c. Add a field in the Contractor Verification System for Trusted Agents
               to document a contractor’s need for Public Key Infrastructure digital
               certificates.

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
USD (P&R), disagreed, stating that, in coordination with the Assistant Secretary of
Defense (Networks and Information Integration)/DoD Chief Information Officer and
during the DoD instruction development process, CAC holders’ eligibility for network
access probably will be defined in greater detail. Furthermore, the Deputy Under
Secretary stated that determination of eligibility for network logon and the management
of network accounts may not necessarily rest with the CVS Trusted Agents, but with
others in their organization, leaving the value added, practicality, and enforceability of
capturing this information in CVS unclear.

Our Response
We concluded from the Deputy Under Secretary’s response that our recommendation was
unclear. We revised the recommendation to clarify the need to add a field in CVS for
Trusted Agents to document a contractor’s need for Public Key Infrastructure digital
certificates. Therefore, we request that the USD (P&R) review the revised
recommendation and provide comments on the final report by October 31, 2008.

C.2. We recommend that the Under Secretary of Defense for Personnel and
Readiness, the Under Secretary of Defense for Intelligence, and the Assistant
Secretary of Defense (Networks and Information Integration)/DoD Chief
Information Officer:

       a.    Designate within 90 days the lead organization responsible for
            immediately developing and implementing a recovery plan for contractor
            Common Access Cards showing improper pay grades and e-mail
            addresses.

       b. Implement the recovery plan for contractor Common Access Cards
          showing improper pay grades and e-mail addresses.

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
USD (P&R), disagreed. The Deputy Under Secretary stated that the USD (P&R)
recognizes that the current CAC infrastructure does not prevent a potentially incorrect or
misleading pay grade equivalent from being printed on a contractor’s CAC, but this
would be corrected. However, the Deputy Under Secretary stated that designating a lead
and implementing a recovery plan for CACs that are currently in circulation are out of
proportion to the perceived risks cited in the draft report. The Deputy Under Secretary
stated specifically that a contractor Geneva Conventions Identification Card for Civilians
Accompanying the Armed Forces CAC will still indicate that the individual is a
“Contractor” or “Foreign Affiliate” even if the card displays an incorrect pay grade.


                                            50
Further, the Deputy Under Secretary stated that there was no evidence in the draft report
showing that a pay grade on a contractor’s card was used to authorize any type of access
or privileges. Furthermore, the Deputy Under Secretary stated that there are significant
cost implications and operational effects associated with recovering all CACs containing
incorrect pay grades and e-mail addresses. Therefore, the Deputy Under Secretary
concluded that a more appropriate approach would be to let current CACs be revoked and
expire in accordance with the normal life cycle and focus on improving the proper pay
grade categorizations for new contractor CACs.

The Under Secretary of Defense for Intelligence agreed, stating that inaccurate
information on contractor CACs poses a security threat and likely may affect
accreditation of the system under the Privacy Act of 1974. The Under Secretary also
stated that the Federal credential uses the red color bar to identify First Responders, and
that the color bar on contractor CACs, coupled with inaccurate Government civilian pay
grades, poses a significant vulnerability to Federal facilities worldwide.

The Deputy Assistant Secretary of Defense (Information and Identity Assurance),
responding for the Assistant Secretary of Defense (Networks and Information
Integration)/DoD Chief Information Officer, partially agreed. The Deputy Assistant
Secretary stated that contractor e-mail addresses are not displayed on the outside of
contractor CACs, but appear only in the signing or encryption certificates. The Deputy
Assistant Secretary explained that, because use of the card for physical access does not
provide access to or expose the e-mail address of the card holder, the number of
contractor CACs used in Southwest Asia to authenticate the card holders’ eligibility for
access to logical resources is very small and poses little risk to DoD operations.
However, the Deputy Assistant Secretary stated that the Assistant Secretary of Defense
(Networks and Information Integration)/DoD Chief Information Officer intends to work
closely with the USD (P&R) and the Under Secretary of Defense for Intelligence to
develop a plan focused on immediate recovery and reissuance of CACs with improper
e-mail addresses for contractors located in the United States, while improperly issued
contractor CACs currently in use in Southwest Asia will be recovered as they expire.
The Deputy Assistant Secretary acknowledged that, although recovery and reissuance are
important, the immediate focus should be on correcting issuance procedures.

Our Response
The Deputy Under Secretary’s, Under Secretary’s, and Deputy Assistant Secretary’s
comments were partially responsive. All three clients acknowledged that recovery and
reissuance of CACs are important, and the Deputy Under Secretary and Deputy Assistant
Secretary specifically proposed revoking and recovering contractor CACs as they expire.
While we agree that this recovery plan will be the least costly and onerous to the
Department, we still believe that a lead organization should be designated to coordinate
the further development of this recovery plan, and coordination should occur among the
three organizations to ensure implementation of the recovery plan. Therefore, we request
that the USD (P&R), the Under Secretary of Defense for Intelligence, and the Assistant
Secretary of Defense (Networks and Information Integration)/DoD Chief Information



                                             51
Officer reconsider their positions on Recommendations C.2.a. and C.2.b. and provide
comments on the final report by October 31, 2008.




                                          52
Finding D. Oversight of Common Access
Card Sponsors
DoD CVS Service Points of Contact (SPOCs) did not fulfill their oversight
responsibilities for appointing CAC sponsors20 and deactivating their accounts. DMDC
data indicated that 303 CAC sponsors were contractors, and 45 active CVS CAC
application sites had no manager for their sponsors. As a result, contractors and sponsors
who left Government service may have been approving CACs. To strengthen oversight
of CAC sponsors, DoD should implement procedures to:

       •   verify that CAC sponsors are Government employees,

       •   verify that each CVS site has managers, and

       •   confirm periodically that sponsors should still have authorization to approve
           contractor CACs.

Organization of CAC Application Sites
Each Service agency has an SPOC who is responsible for coordinating with DMDC to
establish and manage CVS sites and Trusted Agent Security Managers (TASMs). Each
site may have no more than two TASMs but is allowed unlimited Trusted Agents. The
DMDC CVS User’s Guide states that TASMs are responsible for appointing and
managing Trusted Agents, and that neither TASMs nor Trusted Agents shall be
contractors. In addition, a TASM may perform all Trusted Agent functions—for
example, sponsoring contractors for CACs. Figure 10 shows how a CVS site should be
organized according to the DMDC CVS User’s Guide.




20
     CAC sponsors are Trusted Agent Security Managers or Trusted Agents.


                                                    53
                            Figure 10. Organization of CVS Sites

Appointment of CAC Sponsors
DMDC data indicated that 303 TASMs and Trusted Agents were contractors.21 These
sponsors managed 1,291 CVS applications during the first 6 months of 2007. Table 7
delineates the classification of CAC sponsors.

                 Table 7. CAC Sponsors by Personnel Classification
           Classification in DEERS             TASMs         Trusted                          Total
                                                             Agents
Contractor with active CAC                       22             181                            203
Contractor with active CAC who was also in        6              35                             41
the revoked CAC data we obtained
Contractor with revoked CAC                       6              41                              47
Not in DEERS as a contractor, but has a “.ctr”    4               8                              12
e-mail address
                     Total                       38             265                            303

According to the DMDC CVS User’s Guide, SPOCs establish CVS sites and appoint
TASMs by sending a digitally signed e-mail to the DMDC Support Office requesting
new or additional CVS capability. Then, the DMDC Support Office generates the TASM
record in a system called DEERS Security Online. DEERS Security Online is an


21
  DMDC data indicated that 94 of the 303 TASM and Trusted Agent contractors worked at DMDC Support
Centers and testing sites. In addition, 3 TASM and Trusted Agent contractors had no CVS site number and
4 appeared to have accounts that were deactivated, leaving 202 TASM and Trusted Agent contractors
working at other CVS sites.


                                                  54
application, separate from CVS, used to authorize TASMs and Trusted Agents to perform
their duties.

TASMs also use DEERS Security Online to appoint Trusted Agents. According to
DMDC officials, DEERS Security Online does not prevent contractors from becoming
Trusted Agents. Rather, DMDC relied on TASMs to ensure that Trusted Agents were not
contractors.

Monitoring and Deactivation of CAC Sponsor Accounts
DMDC data indicated that 45 CVS sites had no TASM to manage Trusted Agents.
Trusted Agents at these unmanaged sites processed 2,080 CVS applications during the
first 6 months of 2007. DMDC officials stated that the data showed some sites appeared
to have no TASMs because the TASMs may never have logged in to CVS, or their use of
CVS was suspended because of inactivity. Without a TASM, Trusted Agents who left
Government service could not have had their accounts deactivated in CVS. According to
DMDC data, the accounts of only 10 out of 2,033 TASMs and 10 out of 8,627 Trusted
Agents have been deactivated since DoD started using CVS in 2006.

The DMDC CVS User’s Guide states that SPOCs are responsible for working with the
DMDC Security Team to register, appoint, and remove TASMs. It was unclear how
SPOCs accounted for TASMs at each CVS site under their Service or agency.
Additionally, the DMDC CVS User’s Guide did not include instructions telling TASMs
to remove a Trusted Agent who no longer needed access to CVS.

Conclusion
DMDC data indicated that CACs could be approved by contractors and by sponsors who
have left Government service. This increases the risk of unauthorized access to
Government facilities and information. This risk could be minimized by improving
system controls and increasing SPOC and TASM oversight to strengthen the process for
appointing TASMs and Trusted Agents and deactivating their CVS accounts.

Actions Taken by the Defense Manpower Data Center
DMDC officials stated that they intended to conduct a self-audit to determine whether
TASMs and Trusted Agents were contractors, and, if so, to alert SPOCs to take action. In
addition, DMDC officials confirmed that TASMs and Trusted Agents must be
Government personnel and stated that they communicated this requirement to SPOCs.

At the end of April 2008, DMDC and the Services started an internal review of Trusted
Agents who were contractors. DMDC stated that the Services disabled CVS accounts of
Trusted Agents who were contractors. On September 23, 2008, DMDC officials
estimated that they would complete this action by November 2008.




                                          55
Recommendations, Client Comments, and Our
Response
D.1. We recommend that the Director, Defense Manpower Data Center:

       a. Develop and implement procedures to:

           (1) Verify that Trusted Agent Security Managers and Trusted Agents are
               Government employees before authorizing sponsorship duties.

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
Director, DMDC, agreed, stating that DMDC will implement procedures through the
Security Online System to verify that a TASM or Trusted Agent is a Government
employee or military member. In addition, the Deputy Under Secretary stated that, until
a new release of the Security Online System is available, DMDC will provide reports to
CVS SPOCs to review and determine the appropriate corrective action for those
identified to be inappropriately designated as TASMs and Trusted Agents.

Our Response
The Deputy Under Secretary’s comments were responsive, and no additional comments
are required.

           (2) Verify that Contractor Verification System sites have active Trusted
               Agent Security Managers.

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
Director, DMDC, agreed, stating that DMDC currently monitors the activity of TASM
accounts, and if they are inactive for more than 45 days, the account is automatically
suspended; after 60 days, the account is deleted. Additionally, the Deputy Under
Secretary stated that to reactivate an account the TASM must contact DMDC. Further,
the Deputy Under Secretary stated DMDC notifies the CVS SPOCs when there is a site
with an inactive TASM.

Our Response
The Deputy Under Secretary’s comments were responsive, and no additional comments
are required .

       b. Establish a plan with defined milestones to identify and deactivate the
          Contractor Verification System accounts of all current non-Government
          Trusted Agent Security Managers and Trusted Agents, and implement
          this plan.




                                           56
Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
Director, DMDC, agreed, stating that DMDC will periodically provide the CVS SPOCs a
list of active TASMs and Trusted Agents to review and determine which individuals
should not be TASMs or Trusted Agents. After we received the Deputy Under
Secretary’s official comments, we received additional comments from the DMDC Chief,
Operations-Personnel Identity Protection Solutions Division, explaining the four phases
involved in deactivating CVS accounts of non-Government TASMs and Trusted Agents.
The DMDC Chief stated that Phase Four, requesting Service/Agency compliance with
removing non-Government TASMs and Trusted Agents, will be completed by November
2008.

Our Response
The Deputy Under Secretary’s and the DMDC Chief’s comments were responsive, and
no additional comments are required.

D.2. We recommend that the Under Secretary of Defense for Personnel and
Readiness; Under Secretary of Defense for Acquisition, Technology, and Logistics;
and the Under Secretary of Defense for Intelligence incorporate into the joint
Common Access Card policy (see Recommendation A.5.) a requirement for
Contractor Verification System Service Points of Contact to confirm periodically
that Trusted Agent Security Managers and Trusted Agents are authorized to
approve contractor Common Access Cards. The joint policy should state how often
the Service Points of Contact should perform this action.

Client Comments
The Deputy Under Secretary of Defense for Program Integration, responding for the
USD (P&R), agreed, stating that procedures and processes would be outlined in the DoD
instruction referenced in response to Recommendation A.3.e.(1).

The Principal Deputy Director, Acquisition Resources and Analysis, responding for the
USD (AT&L), agreed, stating that the USD (AT&L) will work with the USD (P&R) and
the Under Secretary of Defense for Intelligence to implement this recommendation.

The Under Secretary of Defense for Intelligence agreed, stating that the staff in the Office
of the Secretary of Defense has convened a working group to address Homeland Security
Presidential Directive-12 implementation and CAC policy.

Our Response
The Deputy Under Secretary’s, Principal Deputy Director’s, and Under Secretary’s
comments were responsive, and no additional comments are required.




                                            57
58
Appendix A. Scope and Methodology
We conducted this performance audit from August 2007 through July 2008 in accordance
with generally accepted government auditing standards.1 Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We conducted this audit at 32 CVS and 35 RAPIDS sites at the following locations:

       •    U.S. Army
               o Headquarters, Department of the Army, Arlington, Virginia
               o Fort Belvoir, Virginia
               o Fort Hood, Texas
               o Fort Bragg, North Carolina
               o Fort Monmouth, New Jersey2

       •    U.S. Navy
               o Commander, Navy Region Mid-Atlantic, Norfolk, Virginia
               o Commander, Navy Region Southwest, San Diego, California
               o Naval Station Norfolk, Virginia
               o Naval Station San Diego, California
               o Naval Air Station, Patuxent River, Maryland

       •    U.S. Air Force
               o Randolph Air Force Base, Texas
               o Lackland Air Force Base, Texas
               o Wright-Patterson Air Force Base, Ohio
               o Edwards Air Force Base, California

       •    U.S. Marine Corps
               o Marine Corps Base, Quantico, Virginia
               o Marine Corps Base, Camp Lejeune, North Carolina
               o Marine Corps Air Station, New River, North Carolina
               o Marine Corps Air Station, Miramar, California
               o Marine Corps Recruit Depot, San Diego, California




1
 We conducted a research project on contractor CACs from June through August 2007. Some evidence
collected for this research project was used to support our audit results.
2
    Interviews with personnel at this site were performed by telephone.


                                                       59
    •    Other
            o Defense Contract Management Agency, Houston, Texas (KBR
               Deployment Processing Center)
            o Defense Finance and Accounting Service, Indianapolis, Indiana
            o Department of State, Washington, D.C.3

We interviewed CVS SPOCs, TASMs, Trusted Agents, RAPIDS Site Security Managers,
and other personnel responsible for the CAC program. We also collected documentation
about CVS and RAPIDS procedures as well as information to test these procedures for
contractors in our statistical samples. We also interviewed officials from the following:

     •   Office of the USD (AT&L);
     •   Office of the USD (P&R), Defense Human Resources Activity;
     •   Office of the Under Secretary of Defense for Intelligence;
     •   Office of the Assistant Secretary of Defense (Networks and Information
         Integration)/DoD Chief Information Officer;
     •   Army Materiel Command;
     •   U.S. Army Human Resources Command;
     •   Office of the Deputy Under Secretary of the Army—Business Transformation
     •   Director, DMDC; and
     •   Office of the Director, Defense Procurement and Acquisition Policy;

Finally, we performed work at DMDC-East in Arlington, Virginia, and DMDC-West in
Monterey, California. Specifically, we obtained an understanding of the DEERS,
RAPIDS, and CVS systems as well as of the data processed and stored within these
systems. We also obtained an understanding of how DD Forms 1172-2 were processed
by DMDC and collected some of these forms for audit testing. In addition, we obtained
several sets of data, from which we drew four statistical samples to perform audit testing.
These data sets are explained in the “Use of Computer-Processed Data” section, and the
statistical samples are explained in the “Use of Technical Assistance” section.

Review of Internal Controls
We identified material internal control weaknesses in the DoD contractor CAC life cycle
as defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
Procedures,” January 4, 2006. DoD did not have a joint policy that required contractor
CACs to be consistently approved, issued, reverified, and revoked and recovered.
Further, DoD did not have procedures to oversee and verify CAC sponsors and their
managers. In addition, neither CVS nor RAPIDS had automated controls to prevent
improper changes to contractor CAC records. Implementing the recommendations in this
report should strengthen national security. A copy of this report will be sent to the senior
DoD official responsible for internal controls.



3
 Department of State Trusted Agents at this location worked for a CVS site managed by the Department of
the Army.


                                                  60
Use of Computer-Processed Data
We relied on six sets of computer-processed data from DMDC for this audit:

       •    CVS applications from January 1 through June 30, 2007;
       •    CVS reverifications from January 1 through June 30, 2007;
       •    CVS TASM and TA rosters through July 27, 2007;
       •    DEERS records of issued CACs that were active as of July 19, 2007;
       •    DEERS records of revoked CACs from January 1 through June 30, 2007; and
       •    ILP CAC terminations from January 1 through November 2, 2007.

We used these data to draw four statistical samples that answered seven questions related
to the contractor CAC life cycle as follows.

       •    CVS applications sample
              o How many applicants worked on valid Government contracts?
              o How many applicants were approved to have a CAC for the length of their
                  contract or 3 years, whichever was shorter?

       •    CVS reverifications sample
              o How many contractors had a continued need to possess a CAC?

       •    DEERS records of issued CACs
              o For how many contractors was information in DEERS consistent with the
                 information maintained either in CVS or on the DD Form 1172-2?
              o For how many contractors was the issued CAC supported by either a CVS
                 application or the DD Form 1172-2?
              o How many contractors had a completed NACI?

       •    DEERS records of revoked CACs4
              o How many revoked CACs were recovered?

In addition, we used computer-processed data to test the following nonsample questions.

        •   How many TASMs and TAs were contractors?
        •   How many TASMs and TAs were deactivated from CVS?
        •   How many CVS applications were managed by each TASM and TA?
        •   How many contractors had multiple active CACs?
        •   How many contractors have Government pay grades on their CACs?
        •   How many CACs with Government pay grades were Geneva Conventions
            CACs?



4
    We used ILP CAC termination data to determine whether revoked CACs were recovered.



                                                   61
     •   How many contractors have “.mil” e-mail addresses and three digital certificates
         on their CACs to facilitate identification, signing e-mail, and encrypting e-mail?
     •   How many contractors with a “.mil” e-mail address and three digital certificates
         on their CACs were identified as contractors in their e-mail addresses, in
         accordance with DoD Instruction 8500.2, “Information Assurance (IA)
         Implementation,” February 6, 2003?
     •   How many contractor CACs were revoked because they were lost?
     •   How many contractors issued CACs at the KBR Deployment Processing Center
         were planning to work in Southwest Asia?
     •   How many revoked contractor CACs, issued at the KBR Deployment Processing
         Center, were recovered?
     •   For what length of time were CACs issued at the KBR Deployment Processing
         Center valid?

The computer-processed data were sufficiently reliable, based on tests performed, given
our use of the data previously described. However, we did identify several errors in the
computer-processed data, none of which significantly impacted our audit results. To
further minimize the impact of errors in the data, we obtained additional written and
testimonial evidence during our site visits to support our audit results. The detailed
discussion of errors in the computer-processed data sets will be provided on request.

Use of Technical Assistance
The contractor CAC life cycle occurred worldwide across 1,397 CVS sites and 1,474
RAPIDS sites.5 Due to the scope of this process, we decided to use statistical sampling
for the audit. The first step for statistical sampling was to develop subpopulations for the
data sets corresponding to the contractor CAC life cycle. These subpopulations were
developed by identifying the CVS and RAPIDS locations with the highest levels of
activity (i.e., CVS applications managed, reverifications conducted, and CACs issued) for
the Services and agencies. Based on the four locations with the most activity for each
Service and agency, we determined geographic clusters with 129 CVS and 89 RAPIDS
sites which comprised our subpopulations. These subpopulations included Army, Navy,
Air Force, Marine Corps, and Defense Agency CVS and RAPIDS sites. The number of
records in each subpopulation was as follows:

    •    39,532 CVS applications,
    •    32,098 CVS reverifications,
    •    97,117 issued CACs, and
    •    28,205 revoked CACs.

The Office of Inspector General Quantitative Methods Directorate developed the
statistical samples of (1) CVS applications, (2) CVS reverifications, (3) CACs issued, and
(4) CACs revoked for each audit subpopulation. They used stratified sample design to


5
The number of CVS and RAPIDS sites includes deployable sites and was based on data obtained in
August 2007.


                                                 62
ensure that each of the Services and agencies in our subpopulations were appropriately
represented in the samples. The Quantitative Methods Directorate used SAS (Statistical
Analysis System) to select appropriate random samples from each stratum. In addition,
they performed calculations to make statistically defensible estimates for the
subpopulations based on the audited sample results and assisted in interpreting and using
the estimates correctly. See Appendix B for detailed information about the work
performed by the Quantitative Methods Directorate.

In addition, the Office of Inspector General Personnel Security Office provided JPAS
results for each statistically selected issued CAC record. Specifically, Security officials
queried JPAS for each individual in the sample by their Social Security number. This
information was extracted during November 2007.

Prior and Related Coverage
This audit is the first in a series on the contractor CAC. The second in the series focuses
on the contractor CAC in Southwest Asia. The third in the series focuses on the
contractor CAC in the Republic of Korea. Subsequent CAC audits may be planned for
other overseas locations.

During the last 5 years, the Government Accountability Office, the Department of
Defense Inspector General, the Naval Audit Service, and the Air Force Audit Agency
have issued seven reports discussing CACs. Unrestricted Government Accountability
Office reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
Department of Defense Inspector General reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Naval Audit Service reports are not
available over the Internet. Unrestricted Air Force Audit Agency reports can be accessed
over the Internet at http://www.afaa.hq.af.mil/domainck/index.shtml.

Government Accountability Office
Government Accountability Office Report No. GAO-07-525T, “Stabilizing and
Rebuilding Iraq: Conditions in Iraq Are Conducive to Fraud, Waste, and Abuse,”
April 23, 2007

Government Accountability Office Report No. GAO-06-178, “Agencies Face Challenges
in Implementing New Federal Employee Identification Standard,” February 2006

Department of Defense Inspector General
Department of Defense Inspector General Report No. D-2008-104, “DoD
Implementation of Homeland Security Presidential Directive-12,” June 23, 2008

Navy
Naval Audit Service Report No. N2005-038, “Common Access Card Implementation,”
April 8, 2005




                                             63
Air Force
Air Force Audit Agency Report No. F2008-0005-FD2000, “Controls Over Contractor
Identification,” April 2, 2008

Air Force Audit Agency Report No. F2007-0018-FCR000, “Common Access Card Use
for Physical Access, Headquarters Air Force Reserve Command, Robins Air Force Base,
GA,” April 27, 2007

Air Force Audit Agency Report No. F2007-0014-FCR000, “Common Access Card Use
for Physical Access, 116th Air Control Wing, Robins Air Force Base, GA,” April 12,
2007




                                        64
Appendix B. Estimates Based on Statistical
Sampling
We requested estimates from the Office of Inspector General’s Quantitative Methods
Directorate to answer questions explained in Appendix A in the “Use of Computer-
Processed Data” section.1 In general, these estimates quantified the weaknesses present
in each phase of the contractor CAC life cycle. The estimates are based on a 90-percent
confidence level. The 90-percent confidence level means there is a 10-percent risk that
the interval does not encompass the true subpopulation value.

The statistical estimates are in the table on the next page. The first row in the table shows
that between 76.17 percent and 89.68 percent of the 39,532 CVS applications did not
have enough evidence to link the applicant to a valid Government contract. The point
estimate2 was 82.93 percent. The corresponding number of CVS applications with
insufficient evidence linking the applicant to a valid Government contract lies in a range
from 30,113 to 35,451, with a point estimate of 32,782. The other seven estimates can be
interpreted the same way.




1
 There were only seven sample questions in Appendix A. The eighth estimate was done to determine the
number of revoked CACs for which recovery was undeterminable.
2
    The point estimate is a single numerical value halfway between the upper and lower bounds.


                                                      65
              Detailed Statistical Estimates of Weaknesses in Each Phase
                          of the Contractor CAC Life Cycle
    Answer to Question in          Lower         Point        Upper        Records in
        Appendix A                 Bound       Estimate       Bound      Subpopulation
                                 (Percent)     (Percent)     (Percent)

CVS Applications: Applicants       30,113         32,782    35,451         39,532
Whose Link to a Valid              (76.17)        (82.93)   (89.68)
Government Contract Was
Undeterminable
CVS Applications: Applicants       33,332         35,383    37,434         39,532
Whose CAC Issuance Length          (84.32)        (89.50)   (94.69)
Cannot Be Determined To Be
Appropriate
CVS Reverifications: Contractors   28,054         29,544    31,033         32,098
Whose Continued Need to            (87.40)        (92.04)   (96.68)
Possess a CAC Was
Undeterminable
RAPIDS CACs Issued:                20,918         28,606    36,293         97,117
Contractors Whose DEERS            (21.54)        (29.45)   (37.37)
Record Was Inconsistent With
Information in CVS or on
DD Form 1172-2
RAPIDS CACs Issued:                8,973          15,722    22,471         97,117
Contractors Who Were Issued a      (9.24)         (16.19)   (23.14)
CAC Without an Approved CVS
Application or DD Form 1172-2
RAPIDS CACs Issued:                32,090         39,320    46,550         97,117
Contractors Who Did Not Have a     (33.04)        (40.49)   (47.93)
Completed NACI
RAPIDS CACs Revoked:                8,570         10,675    12,780         28,205
Contractors Whose Revoked          (30.38)        (37.85)   (45.31)
CACs Were Not Recovered
RAPIDS CACs Revoked:                3,751          5,615     7,480         28,205
Contractors For Whom Recovery      (13.30)        (19.91)   (26.52)
of Revoked CAC Was
Undeterminable




                                             66
 Appendix C. Multiple Active CACs
 The table below shows which types of multiple active CACs were held by DoD and non-
 DoD contractors, based on the computer-processed data we obtained from DMDC.
 Generally, the meaning for each type of CAC is as follows:
    • Identification. This is a regular CAC for physical and, in some cases, logical
        computer access.
    • Identification Privilege. This is an Identification CAC that may have privileges;
        for example: commissary, morale and welfare, and recreation.
    • Accompanying Armed Forces. This is a Geneva Conventions CAC, as described
        in finding C.
    • PIV. Personal Identity Verification CACs are CACs designed for compliance
        with Homeland Security Presidential Directive-12.

                           Contractors With Multiple Active CACs
 Type of                               Types of CACs                                        Number of     Total
Personnel                                                                                   Contractors

  DoD          Identification and Accompanying Armed Forces                                       13
Contractor     Identification and Identification Privilege                                        26
               Identification and PIV Identification                                              11
               Identification and Two Identification Privilege                                     1
               Identification Privilege and Accompanying Armed Forces                              6
               Two Accompanying Armed Forces                                                      16
               Two Identification                                                                567
               Two Identification Privilege                                                       20      660
   DoD         Identification Privilege and Accompanying Armed Forces                              5
Contractor/    PIV Identification Privilege, and Accompanying Armed Forces                         1
 non-DoD       Identification and Accompanying Armed Forces                                        3
   Civil
               Identification and Identification Privilege                                         5
  Servant
               Two Identification                                                                 43
               Two Identification Privilege                                                        5       62
   DoD         Identification and Accompanying Armed Forces                                        2
Contractor/    Identification and Identification Privilege                                         5
OCONUS         Two Identification                                                                 13
   Hire                                                                                                    20
   DoD/        Identification and Identification Privilege                                         1
 non-DoD       Two Identification                                                                 28
Contractor     Two Identification Privilege                                                        1       30
                                                                                         Total            772
 Note: Based on the DMDC data, the 772 contractors had a total of 1,545 CACs: 771contractors each had
 2 CACs (771 x 2 = 1,542), and a contractor had 3 CACs, totaling 1,545 CACs (1,542 + 3).




                                                  67
68
     Appendix D. Contract Clauses Governing
     CAC Recovery
     The table below explains the applicability, strengths, and weaknesses of the two standard
     contract clauses governing the contractor CAC life cycle.

              Standard Contract Clause Applicability, Strengths, and Weaknesses
  Clause           Applicability            Strengths                  Weaknesses
Federal       All DoD contracts; the          1. The clause requires the      1. “Routine” is open to interpretation,
Acquisition   Contracting Officer inserts     contractor to comply with       and Contracting Officers may not
Regulation    after determining that a        agency personal identity        apply it consistently to contractors.
52.204-9      contractor employee requires    verification procedures.        Also, subcontract administrators may
              “routine” physical or logical                                   not apply it consistently to
              access to DoD assets.                                           subcontracts.

                                              2. The contracting company
                                              is required to insert this
                                              clause into all subcontracts
                                              when its personnel require
                                              physical or logical access.

Air Force     All Air Force contracts;        1. This clause appears to be    1. The Air Force Federal Acquisition
Federal       inserted after determination    required whenever CAC is        Regulation Supplement allows the
Acquisition   that contractor personnel       issued to a contractor.         clause or one similar to it to be added
Regulation    require physical and/or                                         to contracts. Therefore, consistency of
Supplement    logical access to DoD assets.                                   the strengths and weaknesses in the
5342.490-2                                                                    clause is unknown.
                                              2. The clause specifies         2. The procedures are outdated and
                                              procedures for the              should not include an option to fill out
                                              contractor to request a         a DD Form 1172-2. Rather, the
                                              CAC.                            procedures should require the
                                                                              contractors to use CVS.
                                              3. This clause addresses        3. Contractors have 7 days to return
                                              CAC return when the             their CAC. It is not clear whether
                                              contract ends or in certain     anyone in the Air Force is responsible
                                              contingency situations.         for ensuring the CAC is recovered
                                                                              when access is no longer required.

                                              4. The clause instructs         4. The Air Force Federal Acquisition
                                              contractors to properly         Regulation Supplement does not
                                              display the CAC.                require contractors to include this
                                                                              clause in subcontracts when
                                                                              subcontractor personnel require
                                                                              physical and/or logical access.
                                              5. This clause allows the Air
                                              Force to withhold final
                                              contract payment for
                                              violations of the clause.




                                                      69
70
Under Secretary of Defense for Acquisition, Technology,
and Logistics Comments

                                                            Final Report
                                                             Reference




                                                          Renumbered as
                                                          Recommendation
                                                          A.2.

                                                          Renumbered as
                    Click to add JPEG file                Recommendation
                                                          A.5.



                                                          Renumbered as
                                                          Recommendation
                                                          A.5.




                                                          Renumbered as
                                                          Recommendation
                                                          A.4.




                                   71
                           Final Report
                            Reference



                         Renumbered as
                         Recommendation
                         A.3.c.




                         Renumbered as
                         Recommendation
                         A.5.




Click to add JPEG file




               72
Under Secretary of Defense for Personnel and Readiness
Comments




                   Click to add JPEG file




                                  73
                           Final Report
                            Reference




                         Renumbered as
                         Recommendation
                         A.3.




Click to add JPEG file
                         Revised




                         Revised




               74
                           Final Report
                            Reference




                         Renumbered as
                         Recommendation
                         A.3.




Click to add JPEG file




                         Revised




                         Revised




               75
                           Final Report
                            Reference



                         Renumbered as
                         Recommendation
                         A.3.e.(1)

                         Renumbered as
                         Recommendation
                         A.3.c.




                         Renumbered as
                         Recommendation
Click to add JPEG file   A.3.d.



                         Renumbered as
                         Recommendation
                         A.3.e.(1)




                         Renumbered as
                         Recommendations
                         A.3.e.(2)
                         and A.3.e.(1)




               76
                           Final Report
                            Reference



                         Renumbered as
                         Recommendation
                         A.5.




                         Renumbered as
                         Recommendation
                         A.4.


                         Renumbered as
Click to add JPEG file   Recommendation
                         A.3.c.




                         Renumbered as
                         Recommendation
                         A.5.

                         Renumbered as
                         Recommendation
                         A.3.e.(1)




                         Renumbered as
                         Recommendation
                         A.3.c.




               77
                           Final Report
                            Reference


                         Renumbered as
                         Recommendation
                         A.6.

                         Renumbered as
                         Recommendation
                         A.5.B.(5)

                         Renumbered as
                         Recommendation
                         A.6.

                         Renumbered as
                         Recommendation
                         A.3.e.(1)




Click to add JPEG file




               78
                           Final Report
                            Reference




                         Revised




Click to add JPEG file




               79
                           Final Report
                            Reference




                         Revised




Click to add JPEG file




               80
Click to add JPEG file




               81
Click to add JPEG file




               82
                           Final Report
                            Reference




                         Renumbered as
                         Recommendation
                         A.5.




                         Renumbered as
                         Recommendation
                         A.3.e.(1)




Click to add JPEG file




               83
Under Secretary of Defense for Intelligence Comments




                   Click to add JPEG file




                                  84
                           Final Report
                            Reference




                         Renumbered as
Click to add JPEG file   Recommendation
                         A.4.




               85
                           Final Report
                            Reference



                         Renumbered as
                         Recommendation
                         A.5.




                         Renumbered as
                         Recommendation
                         A.4.


                         Renumbered as
                         Recommendation
                         A.3.c.
Click to add JPEG file


                         Renumbered as
                         Recommendation
                         A.5.a.




                         Renumbered as
                         Recommendation
                         A.5.b.




               86
                           Final Report
                            Reference




Click to add JPEG file




                         Renumbered as
                         Recommendation
                         A.5.




               87
Assistant Secretary of Defense (Networks and Information
Integration)/DoD Chief Information Officer Comments




                   Click to add JPEG file




                                  88
Click to add JPEG file




               89
U.S. Army Materiel Command Comments




                 Click to add JPEG file




                                90
Deputy Under Secretary of the Army for Business
Transformation Comments

                                                    Final Report
                                                     Reference




                                                  Revised




                   Click to add JPEG file




                                                  Pages 29-30




                                  91
                           Final Report
                            Reference




                         Page 32




                         Page 33




Click to add JPEG file




               92
U.S. Army Human Resources Command Comments


                                               Final Report
                                                Reference




                                             Renumbered as
                                             Recommendation
                                             B.4.


                Click to add JPEG file




                               93
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing, Joint
and Overseas Operations prepared this report. Personnel of the Department of Defense
Office of Inspector General who contributed to the report are listed below.

Paul J. Granetto
Donald A. Bloomer
Carol N. Gorman
Melinda M. Oleksa
Dewayne J. McOsker, Jr.
Michael D. Durda
Hanh T. Nguyen
Thomas T. Nguyen
David M. Staley
Anthony M. Torres
Christopher S. Groubert
Dharam Jain
Kandasamy Selvavel
Gregory Collins
Allison E. Tarmann
